   Pen
     nsion Benefit
           B       Guaran
                        nty Corrporatio
                                      on
         Office
              e of Ins
                     specto
                          or Gen
                               neral
                  Aud
                    dit Repo
                           ort




Audit off the Pen
A               nsion Be
                       enefit Guaranty Corporration’s
  Fiscal Year 20012 and 2011 Fiinancial Statem
                                             ments




                Novem
                    mber 14, 2012
                                        AUD-2013
                                               3-1/FA-12-88--1
This page intentionally left blank.
This page intentionally left blank.
              Audit of the Pension Benefit Guaranty Corporation’s
               Fiscal Year 2012 and 2011 Financial Statements

                    Audit Report AUD-2013-1 / FA-12-88-1



                                    Contents


Section I:      Independent Auditor’s Report

Section II:     Pension Benefit Guaranty Corporation’s
                Fiscal Year 2012 and 2011 Financial Statements

Section III:    Management Comments




                                   Acronyms

A&A             Assessment and Authorization
ASD             Actuarial Services Division
BAPD            Benefits Administration Payment Department
CFR             Code of Federal Regulations
CCRM            Configuration, Change, and Release Management
CFS             Consolidated Financial System
CCRD            Contracts and Controls Review Department
CAP             Corrective Action Plan
DoPT            Date of Plan Termination
ERISA            Retirement Income Security Act of 1974
ETA             Enterprise Target Architecture
FIPS PUB        Federal Information Processing Standards Publication
FMFIA           Federal Managers’ Financial Integrity Act of 1982
FY              Fiscal Year
IPS             Image Processing System
IT              Information Technology
IPVFB           Integrated Present Value of Future Benefit
NIST SP         National Institute of Standards and Technology Special Publication
OIG             Office of Inspector General
OIT             Office of Information Technology
OMB      Office of Management and Budget
PAM      Portfolio Accounting and Management
POA&M    Plan of Action and Milestones
PAS      Premium Accounting System
PVFB     Present Value of Future Benefit
PBGC     Pension Benefit Guaranty Corporation
TAS      Trust Accounting System
TIS      Trust Interface System
TPD      Trusteeship Processing Division
U.S.C.   United States Code
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2012 and 2011 Financial Statements

      Audit Report AUD-2013-1 / FA-12-88-1




                    Section I

       Independent Auditor’s Report
This page intentionally left blank.
                                                                         CliftonLarsonAllen LLP
                                                                         11710 Beltsville Drive, Suite 300
                                                                         Calverton, MD 20705
                                                                         301-931-2050 | fax 301-931-1710
                                                                         www.cliftonlarsonallen.com




To the Board of Directors, Management,
and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC

                                   Independent Auditor’s Report


In our audits of the Single-Employer and Multiemployer Program Funds administered by the
Pension Benefit Guaranty Corporation (PBGC or the Corporation) for fiscal years (FY) 2012 and
2011, we found:

   The financial statements are presented fairly, in all material respects, in conformity with
    accounting principles generally accepted in the United States of America (U.S.).

   PBGC did not have effective internal control over financial reporting (including safeguarding
    assets) and compliance with laws and regulations and its operations as of September 30, 2012.

   One instance of reportable noncompliance with selected provisions of laws and regulations we
    tested.

The following sections discuss in more detail (1) these conclusions; (2) our conclusions on other
accompanying information; (3) management’s responsibility for the financial statements; (4) our
responsibility for the audit; and (5) management’s comments and our evaluation.

                               Opinion on the Financial Statements

The financial statements, including the accompanying notes, present fairly, in all material respects,
in conformity with accounting principles generally accepted in the U.S., the financial condition of the
Single-Employer and Multiemployer Program Funds administered by PBGC as of September 30,
2012 and 2011, and the results of their operations and cash flows for the FYs then ended.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining. As of
September 30, 2012, PBGC reported in its financial statements net deficit positions (liabilities in
excess of assets) in the Single-Employer and Multiemployer Program Funds of $29.14 billion and
$5.24 billion, respectively. As discussed in Note 9 to the financial statements, loss exposure for the
Single-Employer and Multiemployer Programs that are reasonably possible as a result of unfunded
vested benefits are estimated to be $295 billion and $27 billion, respectively. Management based
the Single-Employer Program estimate on data for FYs ending in calendar year 2011 that was
obtained from filings and submissions to the government and from corporate annual reports. A
subsequent adjustment for economic conditions through September 30, 2012 has not been made,




                                                  1
and as a result the exposure to loss for the Single-Employer Program as of September 30, 2012
could be substantially different. In addition, PBGC’s net deficit and long-term viability could be
further impacted by losses from plans classified as reasonably possible (or from other plans not yet
identified as potential losses) as a result of deteriorating economic conditions, the insolvency of a
large plan sponsor, or other factors. PBGC has been able to meet its short-term benefit obligations;
however, as discussed in Note 1 to the financial statements, management believes that neither
program at present has the resources to fully satisfy PBGC’s long-term obligations to plan
participants.

                                     Opinion on Internal Control

Because of the effect of the material weaknesses described below on the achievement of the
objectives of the control criteria contained in the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) at 31 U.S.C. 3512(c) and (d), PBGC did not maintain effective internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations and its
operations as of September 30, 2012.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity's financial statements will not be prevented, or detected and
corrected on a timely basis.

We identified certain deficiencies in internal control over financial reporting (including safeguarding
assets) and compliance with laws and regulations and its operation that we consider material
weaknesses, and other deficiencies that we consider to be a significant deficiency. These material
weaknesses adversely affected PBGC’s ability to meet the internal control objectives listed in
management’s responsibility for the financial statements section of this report, or to meet Office of
Management and Budget (OMB) criteria for reporting matters under FMFIA.

We consider the deficiencies in the following areas material weaknesses:

   1. Benefits Administration and Payment Department (BAPD) Management and Oversight
   2. Entity-wide Security Program Planning and Management
   3. Access Controls and Configuration Management

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies in the following area a significant deficiency:

   4. Integrated Financial Management Systems

                                      ********************************

PBGC protects the pensions of approximately 43 million workers and retirees in more than
25 thousand private defined benefit pension plans. Under Title IV of the Employee Retirement
Income Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of




                                                     2
participants in covered private defined benefit pension plans in the U.S. To accomplish its mission
and prepare its financial statements, PBGC relies extensively on the effective operation of the
Benefits Administration and Payment Department (BAPD) and information technology (IT). Internal
controls over these operations are essential to ensure the confidentiality, integrity, and availability of
critical data while reducing the risk of errors, fraud, and other illegal acts.

BAPD manages the termination process for defined benefit plans, provides participant services
(including calculation and payment of benefits) for PBGC-trusteed plans, provides actuarial support
for PBGC, and carries out PBGC's responsibilities under settlement agreements. BAPD has several
distinct divisions including Trusteeship Processing Divisions (TPDs) and the Actuarial Services
Division (ASD). The TPDs are responsible for capturing the participant data for benefit
determinations, managing the benefit payments to participants and beneficiaries, and maintaining
the pension plan and participant files that include underlying documentation used to support the
calculation of benefit amounts for the participant and the pension liabilities recorded on PBGC
financial statements. The ASD is responsible for calculating the Present Value of Future Benefits
(PVFB) liability, based on actuarial assumptions and methods. ASD uses the underlying
documentation maintained by the TPDs, as well as mortality tables and interest rate factors, as key
inputs to calculate pension plan liabilities recorded on PBGC’s financial statements.

BAPD continues to have serious control weaknesses throughout the department. These
weaknesses are attributed to BAPD’s management and oversight over the processes needed to
calculate and value participant’s benefits and the related liabilities, as well as to value plan assets.
Such weaknesses increase significant risks to PBGC’s operations, including accurate calculation of
plan participants’ benefits, accurate financial reporting and compliance with prescribed laws and
regulations. In FYs 2012 and 2011, PBGC hired a contractor to perform a review of its programs
and activities for improper payments in accordance with the Improper Payment Elimination and
Recovery Act. In addition to identifying that actual improper payments occurred, the contractor
found that the underlying documentation used to support the benefit payments was not always
available. Similar documentation is used to support the actuarial calculations of PBGC pension plan
liabilities and related expenses. During FY 2012, we continued to identify numerous deficiencies in
BAPD controls that included inadequate documentation to support the calculation of participants’
benefits and liabilities, errors in their liability calculations, and errors in valuing plan assets.

The establishment and implementation of the appropriate internal controls is critical to PBGC
operations. Furthermore, reliable internal controls ensure that the programs achieve their intended
results; resources are used consistent with agency mission; programs and resources are protected
from waste, fraud, and mismanagement; laws and regulation are followed; and reliable and timely
information is obtained, maintained, reported and used for decision making as stated in the OMB
Circular A-123, Management’s Responsibility for Internal Control. In order to mitigate operational
and financial reporting risks to PBGC as a whole, active involvement from BAPD’s senior
leadership in the monitoring and response to such risks is warranted on a continuous basis.

In response to weaknesses previously identified above, BAPD continues to undergo a strategic
review with the intention of addressing the organizational structure and operational issues. In
FY 2012, BAPD hired a new Director and continued efforts to develop a plan to address the
deficiencies noted in prior OIG financial statements and performance audit reports. PBGC intends
the plan to focus on fundamental issues such as internal controls, processes, contractor oversight,
training, and staff competencies.

IT continues to be a challenge for management. The safeguarding of PBGC’s systems and data is
essential to protect PBGC’s operations and mission. The OIG and others have consistently

                                                    3
identified serious internal control vulnerabilities and systemic security control weaknesses in the IT
environment over the last several years. PBGC’s delayed progress in mitigating these deficiencies
at the root-cause level continued to pose increasing and substantial risks to PBGC’s ability to carry
out its mission during FY 2012. Due to the persistent nature and extended time required to mitigate
such vulnerabilities, additional risks threaten PBGC’s ability to safeguard its systems. These risks
include technological obsolescence, inability to execute corrective actions, breakdown in
communications, and poor monitoring.

PBGC has made some progress in addressing IT security weaknesses at the root-cause level by
continuing the implementation of its FY 2010 Enterprise Corrective Action Plan (CAP), and
introducing additional reporting controls to track progress. Additional tracking controls include the
Enterprise Plan of Action and Milestones (POA&M) and the Progress Status Reports on corrective
actions. However, the current PBGC corrective action process was disjointed, with stove-piped
responsibilities that did not provide a holistic view to inform key decision makers on progress made
and resources needed to complete critical tasks. PBGC is in the process of improving its corrective
action process to be more cohesive where the CAP will inform the POA&M which will, in turn,
provide the Contracts and Control Review Department (CCRD) with the official status of corrective
actions to be included in the Listing of Open OIG Recommendations.

The Corporation has also made progress in addressing the design of its infrastructure, account
management, enterprise security management, and configuration management, but the control
processes have not reached a level of maturity to prove their effectiveness. PBGC is implementing
a disciplined and integrated approach to Configuration, Change, and Release Management
(CCRM) Process & Procedures consistent with National Institute of Standards and Technology
(NIST) Special Publication (SP) 800-53, Rev 3. The Corporation has also developed and is
implementing additional policies and procedures; additional technical and configuration
management tools are also being deployed. However, much remains to be done, and the pace of
progress remains slow.

PBGC anticipated completing the assessment and authorization (A&A) process, formerly referred to
as a certification and accreditation process, on the Corporation’s major applications in FY 2012, but
was unable to complete the process. The work on the A&As that has been performed through
FY 2012 identified significant fundamental security control weaknesses in PBGC’s general support
systems, many of which were reported in prior year’s audits and remain unresolved. We continued
to find deficiencies in the areas of security management, access controls, configuration
management, and segregation of duties. Control deficiencies were also found in policy
administration, and the completion of A&A for all major applications.

PBGC developed an information security policy framework, including the Information Security
Policy which is supported by standards, processes, procedures, and a guide published in June
2012, The Office of Information Technology (OIT) Security Authorization Guide. This Guide
provides steps and templates for use in preparing and completing the Security Authorization and
Assessment process which follows NIST 800-37. Also, the Guide provides a checklist to support
OIT’s review of submitted artifacts as evidence of controls implemented. PBGC is documenting the
review process with the checklist. The new information security policy framework has not reached a
level of maturity to determine its effectiveness. PBGC is still in the process of establishing an
enterprise-wide continuous monitoring program; and deploying additional network management,
monitoring and configuration tools in its environment.

The serious weaknesses in BAPD’s internal controls such as inadequate documentation to support
the benefit and liability calculations, errors in liability calculations and valuing plan assets, as well as

                                                     4
the limited progress of mitigating PBGC’s systemic security control weaknesses create an
environment that could lead to improper application of benefits to plan participations, inaccurate
financial reporting, fraud, waste, and abuse.

Based on our findings, we are reporting that the deficiencies in the following areas constitute three
material weaknesses for FY 2012:

   1. BAPD Management and Oversight
   2. Entity-wide Security Program Planning and Management
   3. Access Controls and Configuration Management

We are also reporting the deficiencies in the following area to be a significant deficiency for
FY 2012:

   4. Integrated Financial Management Systems

Detailed findings and recommendations follow.

1. BAPD Management and Oversight

   BAPD is the core department within PBGC to maintain plan and participant information and to
   calculate plan benefits and related liabilities. BAPD’s management and oversight function is a
   key component of the control environment in which its division managers and staff operates.
   The continuous deficiencies of the aforementioned function increase PBGC’s operational and
   financial reporting risks.

   Calculation of the Present Value of Future Benefits Liability

   During FY 2012, BAPD made errors in calculating the PVFB liability for some participants. ASD
   is primarily responsible for the calculation of the PVFB liability that is recorded on PBGC’s
   financial statements, based on actuarial assumptions and methods. These calculation errors
   were primarily due to two reasons: (1) the actuarial liability factors were applied to incorrect or
   incomplete data inputs and (2) a plan's particular benefit provisions were not sufficiently
   reviewed to correctly calculate individual participants' PVFB liability. Specifically, BAPD’s ASD
   used actuarial assumptions because the best available data was not updated into the applicable
   information system. For example, in some instances an actual date of birth was used to
   calculate a specific benefit but the estimated date of birth was entered into the applicable
   information system causing the calculation of the liability to be incorrect. In other instances,
   ASD incorrectly calculated certain liabilities of the participants using a single life annuity benefit
   plan provision instead of the joint and survivorship benefit. During our June 30 interim testing,
   we identified an error in the calculation of the participant liability for one large plan related to one
   of the plan’s unique provisions. Management was not aware of this unique plan benefit and that
   it had been inappropriately excluded from the participants’ liability calculations. This error
   required additional efforts by BAPD management to determine the underlying cause and to
   calculate an overall plan adjustment to PBGC’s liability at September 30. Due to these errors
   noted during the interim period, we adjusted our year-end audit procedures to address the
   increased operational and financial reporting risks. Using a statistically based sampling
   technique, we noted approximately 13% of the samples tested in which the liability calculated
   for a plan participant was either overstated or understated. The projected value of the error to
   the entire PVFB liability of approximately $106 billion at September 30, 2012, had an estimated


                                                    5
range of approximately $507 million understatement to $875 million overstatement and a point
estimate of $185 million overstatement.

We also noted deficiencies in BAPD’s maintenance of underlying documentation used to
support the calculation of the PVFB. BAPD’s TPDs are primarily responsible for maintaining the
plan and participant files utilized to determine the benefit and liabilities amounts owed to plan
participants. The information system that maintains the participant documentation such as birth
certificates, marriage certificates, participant benefit applications, plan provisions, salary data,
etc., is the Image Processing System (IPS). During our testing at June 30 and September 30,
BAPD was not able to provide the documentation needed to support liability calculations for
some samples. We also noted that the documentation was not maintained in a single
systematic manner and required herculean efforts by BAPD and other PBGC departments to
locate and provide the documentation. The lack of appropriate documentation results in limited
physical and financial reporting controls, and could lead to improper benefit payment and
participant liability calculations by PBGC. Consequently, we could not determine whether the
benefits or the associated liability was calculated properly for those selected samples at June
30 and September 30.

Last year we reported several deficiencies in BAPD related to documentation, including the
need to require archival of source documents, implementation of controls to ensure monitoring
and enforcement of procedures requiring document maintenance, and to improve the training of
persons tasked with calculating and reviewing benefit determinations. These deficiencies have
not yet been corrected.

Because of errors in the liability calculations and the lack of supporting documentation, PBGC is
at risk for inaccurately valuing the plan liabilities reported in its financial statements. Also, these
deficiencies could impact PBGC management’s ability to provide meaningful and accurate
information to its key stakeholders such as the plan participants, the Board, Congress, and
OMB.

Valuation of Plan Assets and Benefits

Although BAPD has undertaken efforts to revalue assets for certain pension plans trusteed by
PBGC, internal control weaknesses in this area continue to merit focus. The fair market value of
a pension plan’s assets at the date of plan termination (DoPT) is an essential factor needed to
determine the retirement benefit amounts owed to plan participants. The lack of BAPD’s
effective oversight and monitoring of contracted reviews over asset valuations continued to
pose significant risks to the participants’ benefit determinations. During FY 2012, BAPD hired
contractors to perform revaluations of plan assets for some large plans which resulted in
increased benefits owed to certain plan participants. BAPD management stated that a risk
analysis is currently underway to determine which additional pension plans may have asset
valuation misstatements and pose the greatest risks to the participants’ benefit payments. This
risk analysis was not complete at September 30, 2012. In addition, management has yet to
finalize a quality control review process to verify and validate the satisfactory completion of
contracted DoPT plan asset valuation audits, and to establish a detailed process to ensure the
consistent application of a methodology to determine the fair market value of plan assets at
DoPT at September 30, 2012.




                                                6
Additional weaknesses identified as part of the prior year financial statement audit stemmed
from inadequate management of contractors, a condition that continues to exist. As previously
discussed, these contractors perform critical functions such as the valuing of plan assets.
Services provided by contractors should be subject to an effective system of internal controls.
Management has not always fully considered the exposure and risk that contractors introduce
into its environment. BAPD intended to develop corrective action plans in FY 2012 to focus on
fundamental issues such as internal controls, processes, contractor oversight, and training and
staff competencies. However, the development of these plans was still in progress at
September 30, 2012.

Recommendations: We recommend that PBGC management:

Promptly correct the errors in its calculations identified by the auditors.

Develop and implement a comprehensive documentation retrieval system that clearly identifies
the location of the participants’ census data and benefit calculation elements in a systematic
manner.

Update the technical reference guide used by ASD to document the procedures used to
calculate the qualified pre-survivor annuity and deferred retirement ages.

Update current procedures to ensure that all plan provisions are considered in the calculation of
the individual participant liability. The procedures should be documented in formal procedural
manual and/or checklist.

Refine their current procedures for processing plans and uploading participant data in the
Genesis database to ensure that the best available data is used to support benefit payments
and IPV liabilities.

Modify the BAPD Operations Manual to explicitly incorporate policies and procedures to archive
source records. The BAPD Operations Manual details the process of creating the participant
database, but does not explicitly require the archival of source records.

Ensure that adequate documentation is maintained, which supports, substantiates, and
validates benefit payment calculations by implementing proper monitoring and enforcement
measures in compliance with approved policies and procedures.

Improve the training of persons tasked with the calculation and review of benefit determinations
to ensure their skills are matched with the complexities of the tasks assigned.

Continue to implement procedures to verify that future contracts for plan asset valuations clearly
outline expectations and deliverables in the statement of work.

Continue to develop a quality assurance program aimed to ensure that plan asset valuations
meet the regulatory standard of determining fair market value based on the method that most
accurately reflects fair market value.

Continue to enhance and formalize efforts to improve staff skills, whether federal or contactor, in
planning the valuation reviews, understanding the risks, and developing appropriate scopes and
procedures to support credible and reliable results.


                                                7
   Identify those plans that might potentially have a pervasive misstatement to the financial
   statements if DoPT asset values were originally misstated. Management should then re-
   evaluate the DoPT asset values for those identified plans and consider the impact of any known
   differences on the financial statements.

2. Entity-wide Security Program Planning and Management

   In prior years, we reported that PBGC’s entity-wide security program lacked focus and a
   coordinated effort to adequately resolve control deficiencies. Deficiencies persisted in FY 2012,
   which prevented PBGC from implementing effective security controls to protect its information
   from unauthorized access, modification, and disclosure. Without a well-designed and fully
   implemented information security management program, there is increased risk that security
   controls are inadequate; responsibilities are unclear, misunderstood, and improperly
   implemented; and controls are inconsistently applied. Such conditions may lead to insufficient
   protection of sensitive or critical resources and disproportionately high expenditures for controls
   over low-risk resources.

   An entity-wide information security management program is the foundation of a security control
   structure and a reflection of senior management’s commitment to addressing security risks. The
   security management program should establish a framework and a continuous cycle of activity
   for assessing risk, developing and implementing effective security procedures, and monitoring
   the effectiveness of these procedures.

   In the Federal Information Security Management Act of 2002, Congress required each federal
   agency to establish an agency-wide information security program to provide security to the
   information and information systems that support the operations and assets of the agency,
   including those managed by a contractor or other agency. OMB Circular No. A-130, Appendix
   III, Security of Federal Automated Information Resources, requires agencies to implement and
   maintain a program to assure that adequate security is provided for all agency information
   collected processed, transmitted, stored, or disseminated in general support systems and major
   applications.

   Recommendations: We recommend that PBGC management:

   Develop and implement a well-designed security management program that will provide security
   to the information and information systems that support the operations and assets of the
   Corporation, including those managed by contractors or other federal agencies.

   Effectively communicate to key decision makers the state of PBGC’s IT infrastructure and
   environment to facilitate the prioritization of resources to address fundamental weaknesses.

3. Access Controls and Configuration Management

   Although access controls and configuration management controls are an integral part of an
   effective information security management program, access controls remain a systemic problem
   throughout PBGC. PBGC’s decentralized approach to system development, system
   deployments, and configuration management created an environment that lacks a cohesive
   structure in which to implement controls and best practices. Weaknesses in the IT environment
   contributed significantly to deficiencies in system configuration, segregation of duties, role-
   based access controls, and monitoring. PBGC realizes these challenges, and is implementing a
   disciplined and integrated approach through development of Configuration, Change, and

                                                 8
Release Management (CCRM) Process & Procedures consistent with NIST 800-53, Rev 3. The
Corporation has also developed and is implementing additional policies and procedures,
including deploying technical and configuration management tools. Technical tools have been
or are being deployed to better manage configuration of common operating platforms. Once
these tools are fully operational in the infrastructure, they will help ensure that controls related to
the configuration of infrastructure components remain consistent and provide alerting
capabilities when components are changed. Other complementary processes, such as the Tiger
Team focus on system scanning and vulnerability management, support PBGC’s capability to
carefully document and validate system vulnerabilities and also provide evidence as to the
operating effectiveness of some technical common controls.

Access controls should be in place to consistently limit and detect inappropriate access to
computer resources (data, equipment, and facilities); and monitor access to computer
programs, data, equipment, and facilities. These controls protect against unauthorized
modification, disclosure, loss, or impairment. Such controls include both logical and physical
security controls to ensure that federal employees and contractors will be given only the access
privileges necessary to perform business functions. Federal Information Processing Standards
Publication (FIPS PUB) 200, Minimum Security Requirements for Federal Information and
Information Systems, specifies minimum access controls for federal systems. FIPS PUB 200
requires PBGC’s information system owners to limit information system access to authorized
users.

Industry best practices, NIST SP 800-64, Security Considerations in the System Development
Life Cycle, and other federal guidance recognize the importance of configuration management
when developing and maintaining a system or network. Through configuration management, the
composition of a system is formally defined and tracked to ensure that an unauthorized change
is not introduced. Changes to an information system can have a significant impact on the
security of the system. Documenting information system changes and assessing the potential
impact on the security of the system, on an ongoing basis, is an essential aspect of maintaining
the security posture. An effective entity-wide configuration management and control policy, and
associated procedures, are essential to ensuring adequate consideration of the potential
security impact of specific changes to an information system. Configuration management and
control procedures are critical to establishing an initial baseline of hardware, software, and
firmware components for the entity, and subsequently controlling and maintaining an accurate
inventory of any changes to the system.

Inappropriate access and configuration management controls do not provide PBGC with
sufficient assurance that financial information and financial assets are adequately safeguarded
from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or destruction.

Recommendation: We recommend that PBGC management:

Develop and implement a coherent strategy for correcting IT infrastructure deficiencies and a
framework for implementing common security controls, and mitigating the systemic issues
related to access control by strengthening system configurations and user account
management for all of PBGC’s information systems.




                                                9
4. Integrated Financial Management Systems

    The risk of inaccurate, inconsistent, and redundant data is increased because PBGC lacks a
    single integrated financial management system. The current system cannot be readily accessed
    and used by financial and program managers without extensive manipulation, excessive manual
    processing, and inefficient balancing of reports to reconcile disbursements, collections, and
    general ledger data.

    OMB Circular A-127, Financial Management Systems, requires that federal financial
    management systems be designed to provide for effective and efficient interrelationships
    between software, hardware, personnel, procedures, controls, and data contained within the
    systems. The Circular states:

        A financial system, hereafter referred to as a core financial system, is an information system
        that may perform all financial functions including general ledger management, funds
        management, payment management, receivable management, and cost management. The
        core financial system is the system of record that maintains all transactions resulting from
        financial events. It may be integrated through a common database or interfaced
        electronically to meet defined data and processing requirements. The core financial system
        is specifically used for collecting, processing, maintaining, transmitting, and reporting data
        regarding financial events. Other uses include supporting financial planning, budgeting
        activities, and preparing financial statements. Any data transfers to the core financial system
        must be: traceable to the transaction source; posted to the core financial system in
        accordance with applicable guidance from the Federal Accounting Standards Advisory
        Board; and in the data format of the core financial system.

    OMB’s Office of Federal Financial Management, Core Financial System Requirements, lists the
    following financial management system performance goals, outlined in the framework
    document, applicable to all financial management systems. All financial management systems
    must do the following:

       Demonstrate compliance with accounting standards and requirements.

       Provide timely, reliable, and complete financial management information for decision making
        at all levels of government.

       Meet downstream information and reporting requirements with transaction processing data
        linked to transaction engines.

       Accept standard information integration and electronic data to and from other internal,
        government-wide, or private-sector processing environments.

       Provide for “one-time” data entry and reuse of transaction data to support downstream
        integration, interfacing, or business and reporting requirements.

       Build security, internal controls, and accountability into processes and provide an audit trail.

       Be modular in design and built with reusability as an objective.

       Meet the needs for greater transparency and ready sharing of information.


                                                   10
       Scale to meet internal and external operational, reporting, and information requirements for
        both small and large entities.

    Because PBGC has not fully integrated its financial systems, PBGC’s ability to accurately and
    efficiently accumulate and summarize information required for internal and external financial
    reporting is impacted. Many of the weaknesses include the lack of standard data classifications
    and common data elements, duplication of transaction entry and obsolete and antiquated
    technologies.

    If managed effectively, IT investments can have a dramatic impact on an organization’s
    performance and accountability. If not correctly managed, they can result in wasteful spending
    and lost opportunities for achieving mission goals and improving mission performance. PBGC
    had several false starts in modernizing its systems and applications that have either been
    abandoned (such as the suspension of work on the Premium and Practitioner System to replace
    PAS) or have been ineffective in leading to the integration of its financially significant systems.
    Unless PBGC develops and implements a well-designed IT architecture and infrastructure to
    guide and constrain modernization projects, it risks investing time and resources in systems that
    do not reflect the Corporation’s priorities, are not well integrated, are potentially duplicative, and
    do not optimally support mission operations and performance.

    To its credit, PBGC began to develop an overall strategy, but much work remains before the
    strategy can be completed and implemented. Specific steps PBGC has taken in FY 2012
    include the following:

       Continued work on its Enterprise Target Architecture (ETA), which provides the road map
        for all PBGC system development and integration, including financial management system
        integration.

       Implemented interface enhancements for CFS, including the payroll interface modernization,
        procurement interface, travel interface, and invoice automation. These interfaces provide
        additional automated capabilities for CFS and reduce the amount of manual data inputs for
        certain transactions.

    However, major work remains to be completed to provide PBGC with integrated financial
    management capabilities. PBGC plans to implement the Trust Accounting and FY File System
    (TAS) in January 2013 after completing the TAS user acceptance testing. TAS will replace the
    following existing financial applications: Portfolio Accounting and Management (PAM), FY File,
    Trust Interface System (TIS), and TIS Transfer. Additionally, TAS will have automated
    interfaces with the CMS, CFS, and IPVFB. Lastly, PBGC has identified future capabilities in its
    financial management to-be architecture including a procurement system and an online
    budgeting system.

    PBGC's IT initiatives include further corrective actions through the implementation of TAS and
    the Premium and Practitioner System (PPS). Also during FY 2012, PBGC began the
    development of PPS. PPS will be fully integrated with the Oracle eBusiness Suite COTS
    solution used for PBGC's Consolidated Financial Systems, and will replace the PAS in
    December 2013.




                                                   11
    Recommendation: We recommend that management:

    Implement and execute a plan to integrate its financial management systems in accordance
    with OMB Circular A-127.

                            Report on Compliance and Other Matters
Except as discussed below, our tests of PBGC’s compliance with selected provisions of laws and
regulations for FY 2012 disclosed no instances of noncompliance that would be reportable under
U.S. generally accepted government auditing standards or OMB audit guidance. However, the
objective of our audit was not to provide an opinion on overall compliance with laws and
regulations. Accordingly, we do not express such an opinion.
Title 29 of the Code of Federal Regulation (C.F.R.) Part 4044.41 Subpart (b), General valuation
rules, states “Plan assets shall be valued at their fair market value, based on the method of
valuation that most accurately reflects such fair market value.”
As reported above in material weakness number one, we noted instances where PBGC failed to
determine the fair market value of plan assets at DoPT as required by this regulation.
This conclusion is intended solely for the information and use of PBGC’s OIG, Board of Directors,
management of PBGC, Government Accountability Office, OMB, the U.S. Congress, and the
President and is not intended to be and should not be used by anyone other than these specified
parties.
                   Management’s Responsibility for the Financial Statements
PBGC’s management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the U.S.; (2) designing, implementing and maintaining
internal control to provide reasonable assurance that the broad control objectives of FMFIA are
met; (3) its assertion of the internal control over financial reporting is included in PBGC’s FY 2012
Annual Report; and (4) complying with applicable laws and regulations.
                                      Auditor’s Responsibility
We are responsible for conducting our audit in accordance with standards generally accepted in the
U.S.; the standards applicable to the financial audits and examination engagements contained in
Government Auditing Standards, issued by the Comptroller of the U.S.; and OMB Bulletin 07-04.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether (1) the financial statements are presented fairly, in all material respects, in conformity with
accounting principles generally accepted in the U.S.; and (2) management maintained effective
internal control as of September 30, 2012 based on management’s assertion included in PBGC’s
FY 2012 Annual Report and on the criteria contained in FMFIA, the objectives of which are the
following:

   Financial reporting: Transactions are properly recorded, processed, and summarized to permit
    the preparation of financial statements in conformity with accounting principles generally
    accepted in the U.S., and assets are safeguarded against loss from unauthorized acquisition,
    use, or disposition.

   Compliance with applicable laws and regulations: Transactions are executed in accordance with
    laws and regulations that could have a direct and material effect on the financial statements and
    any other laws, regulations, and government wide policies identified by OMB audit guidance.


                                                  12
We are also responsible for testing compliance with selected provisions of laws and regulations that
have a direct and material effect on the financial statements, and laws for which OMB Bulletin
07-04 requires testing and performing limited procedures with respect to certain other information
appearing in PBGC’s FY 2012 Annual Report.
In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the appropriateness of the
accounting principles used and significant estimates made by management; (3) evaluated the
overall presentation of the financial statements; (4) obtained an understanding of PBGC and its
operations, including its internal control related to financial reporting (including safeguarding of
assets) and compliance with laws and regulations; (5) evaluated the effectiveness of the design of
internal control; (6) tested the operating effectiveness of relevant internal controls over financial
reporting (including safeguarding assets) and compliance, for the FY ended September 30, 2012;
(7) considered the design of the process for evaluating and reporting on internal control and
financial management systems under FMFIA; and (8) tested compliance for FY 2012 with selected
provisions of certain laws and regulations. The procedures selected depend on the auditors’
judgment, including our assessment of risks of material misstatement of the financial statements,
whether due to fraud or error. We believe we obtained sufficient and appropriate audit evidence on
which to base our opinion.
We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or fraud,
losses, or noncompliance may nevertheless occur and not be detected. We also caution that
projecting our audit results to future periods is subject to risk that controls may become inadequate
because of changes in conditions or that the degree of compliance with controls may deteriorate. In
addition, we caution that our internal control testing may not be sufficient for other purposes.
We did not test compliance with all laws and regulations applicable to PBGC. We limited our tests
of compliance to selected provisions of laws and regulations that have a direct and material effect
on the financial statements, and to those required by OMB Bulletin 07-04 that we deemed
applicable to PBGC’s financial statements for the FY ended September 30, 2012. We caution that
noncompliance may occur and not be detected by these tests and that such testing may not be
sufficient for other purposes.

We considered the material weaknesses identified above in determining the nature, timing, and
extent of our audit procedures on the 2012 financial statements.
                          Management Comments and Our Evaluation
In commenting on the draft of this report (see section III of this report), PBGC’s management
concurred with the facts and conclusions in our report. We did not audit PBGC’s written response
and, accordingly, we express no opinion on it.



a
Calverton, Maryland
November 14, 2012



                                                 13
 

 

 

 

 

 

 

 

 


    This page intentionally left blank.
  Audit of the Pension Benefit Guaranty Corporation’s
   Fiscal Year 2012 and 2011 Financial Statements

        Audit Report AUD-2013-1 / FA-12-88-1




                     Section II

    Pension Benefit Guaranty Corporation’s
Fiscal Year 2012 and 2011 Financial Statements
This page intentionally left blank.
                            PENSION BENEFIT GUARANTY CORPORATION
                             STATEMENTS OF FINANCIAL CONDITION


                                                                Single-Employer        Multiemployer             Memorandum
                                                                    Program              Program                    Total

                                                                      September 30,         September 30,           September 30,
(Dollars in Millions)                                                2012     2011          2012    2011           2012     2011
ASSETS

Cash and cash equivalents                                      $ 3,767       $ 5,021   $     25    $      5    $ 3,792    $ 5,026

Securities lending collateral (Notes 3 and 5)                    3,425         4,587          0           0      3,425      4,587

Investments, at market (Notes 3 and 5):
    Fixed maturity securities                                   48,176        46,257       1,767       1,720    49,943     47,977
    Equity securities                                           22,619        17,997          0           0     22,619     17,997
    Private equity                                                1,339        1,459          0           0      1,339      1,459
    Real estate and real estate investment trusts                    511        536           0           0        511       536
    Other                                                             77         22           0           0         77        22
    Total investments                                           72,722        66,271       1,767       1,720    74,489     67,991



Receivables, net:
    Sponsors of terminated plans                                      41         31           0           0         41        31
    Premiums (Note 11)                                            1,086         561            1          1      1,087       562
    Sale of securities                                            1,353        1,807          0           0      1,353      1,807
    Derivative contracts (Note 4)                                     83        178           0           0         83       178
    Investment income                                                452        469          12          12        464       481
    Other                                                              4          3           0           0          4         3
    Total receivables                                             3,019        3,049         13          13      3,032      3,062


Capitalized assets, net                                               40         32           2           1         42        33


Total assets                                                   $ 82,973      $78,960   $ 1,807     $1,739      $ 84,780   $80,699

The accompanying notes are an integral part of these financial statements.




                                                                14
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                Single-Employer          Multiemployer             Memorandum
                                                                    Program                Program                    Total

                                                                    September 30,          September 30,              September 30,
(Dollars in Millions)                                              2012     2011           2012    2011              2012     2011


LIABILITIES


Present value of future benefits, net (Note 6):
     Trusteed plans                                           $103,126       $ 91,718        $1    $        1    $103,127   $ 91,719
     Plans pending termination and trusteeship                      418          346         0              0        418        346
     Settlements and judgments                                        56          56         0              0         56         56
     Claims for probable terminations                             2,035          833         0              0      2,035        833
     Total present value of future benefits, net               105,635        92,953          1             1    105,636     92,954



Present value of nonrecoverable future
     financial assistance (Note 7)
     Insolvent plans                                                  0             0     1,388        1,232        1,388     1,232
     Probable insolvent plans                                         0             0    5,622         3,243       5,622      3,243
     Total present value of nonrecoverable
       future financial assistance                                    0             0     7,010        4,475        7,010     4,475


Payables, net:
     Derivative contracts (Note 4)                                    94         173         0              0         94        173
     Due for purchases of securities                              2,557        4,079         0              0      2,557      4,079
     Payable upon return of securities loaned                     3,425        4,587         0              0      3,425      4,587
     Unearned premiums                                             328           366        30            31         358        397
     Accounts payable and accrued expenses (Note 8)                   76          68         3              2         79         70
     Total payables                                               6,480        9,273        33            33        6,513     9,306

Total liabilities                                               112,115      102,226     7,044         4,509      119,159   106,735

Net position                                                    (29,142)      (23,266)   (5,237)       (2,770)   (34,379)    (26,036)

Total liabilities and net position                             $82,973       $ 78,960    $1,807    $1,739        $84,780    $ 80,699

The accompanying notes are an integral part of these financial statements.




                                                                 15
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                              Single-Employer                     Multiemployer                     Memorandum
                                                                 Program                            Program                            Total

                                                              For the Years Ended               For the Years Ended              For the Years Ended
                                                               September 30,                      September 30,                     September 30,
(Dollars in Millions)                                          2012               2011             2012             2011           2012                   2011
UNDERWRITING

Income:
    Premium, net (Note 11)                         $          2,642          $    2,072     $      92         $      92     $     2,734        $        2,164
    Other                                                        13                  17              -                 0             13                    17
    Total                                                     2,655               2,089            92                92           2,747                 2,181
Expenses:
    Administrative                                              360                 353            20                14            380                    367
    Other                                                          -                 21              -                 0              -                    21
    Total                                                       360                 374            20                14            380                    388
Other underwriting activity:
    Losses from completed and
     probable terminations (Note 12)                          2,006                 201              -                 0          2,006                   201
    Losses from insolvent and probable plans-
     financial assistance (Note 7)                                                               2,466            1,461           2,466                 1,461
    Actuarial adjustments (credits) (Note 6)                    229               1,672             (6)              37            223                  1,709
    Total                                                     2,235               1,873          2,460            1,498           4,695                 3,371
Underwriting gain (loss)                                         60                (158)        (2,388)           (1,420)        (2,328)                (1,578)


FINANCIAL:
Investment income (loss) (Note 13):
    Fixed                                                     4,699               3,502             91              148           4,790                 3,650
    Equity                                                    4,073                (276)             -                 0          4,073                  (276)
    Private equity                                               42                 144              -                 0            42                    144
    Other                                                       (22)                 76              -                 0           (22)                    76
    Total                                                     8,792               3,446             91              148           8,883                 3,594
Expenses:
    Investment                                                   83                  71              -                 0            83                     71
    Actuarial charges (Note 6):
     Due to expected interest                                 3,927               3,880            54                52           3,981                 3,932
     Due to change in interest rates                         10,718               1,009            116               10          10,834                 1,019
    Total                                                    14,728               4,960            170               62          14,898                 5,022
Financial income (loss)                                      (5,936)              (1,514)          (79)              86          (6,015)                (1,428)
Net loss                                                     (5,876)              (1,672)       (2,467)           (1,334)        (8,343)                (3,006)


Net position, beginning of year                             (23,266)             (21,594)       (2,770)           (1,436)       (26,036)               (23,030)
Net position, end of year                          $        (29,142)         $   (23,266)   $   (5,237)       $ (2,770)     $   (34,379)       $       (26,036)

The accompanying notes are an integral part of these financial statements.




                                                                                      16
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS                                                                                                                   
                                                                       Single-Employer            Multiemployer                     Memorandum
                                                                            Program                  Program                             Total
                                                                      For the Years Ended      For the Years Ended              For the Years Ended
 (Dollars in millions)                                                   September 30,             September 30,                      September 30,
____________________________________________________               ______2012 ____2011        ____2012 ____2011                  ____2012      _2011
    OPERATING ACTIVITIES: 

      Premium receipts                                              $    2,079 $ 2,268         $    92             $     91     $     2,171 $ 2,359
      Interest and dividends received                                    2,122    2,155             58                   74           2,180    2,229
      Cash received from plans upon trusteeship                            126       36              0                    0             126       36
      Receipts from sponsors/non-sponsors                                  114       70              0                    0             114       70
      Receipts from the missing participant program                          7        6              0                    0               7         6
      Other receipts                                                         1        1              0                    0               1        1
      Benefit payments – trusteed plans                                 (5,333) (5,382)              0                    0         (5,333)   (5,382)
      Financial assistance payments                                                                (95)                (115)           (95)     (115)
      Settlements and judgments                                              0            0          0                    0               0        0
      Payments for administrative and other expenses                      (413)       (428)        (20)                 (13)          (433)     (441)
      Accrued interest paid on securities purchased                       (234)       (310)         (3)                  (6)          (237)     (316)
    Net cash provided (used) by operating activities (Note 15)          (1,531)     (1,584)         32                   31         (1,499)   (1,553)
     
    INVESTING ACTIVITIES:
     
      Proceeds from sales of investments                                 77,382     85,242          667            1,216         78,049            86,458
      Payments for purchases of investments                             (77,105)   (83,079)        (679)           (1,248)      (77,784)          (84,327)
      Net change in investment of securities lending collateral          (1,162)      (841)           0                 0         (1,162)            (841)
      Net change in securities lending payable                            1,162        841            0                 0          1,162               841
    Net cash provided (used) by investing activities                        277      2,163          (12)              (32)           265            2,131
     
    Net increase (decrease) in cash and cash equivalents             (1,254)           579          20                   (1)      (1,234)   578
    Cash and cash equivalents, beginning of year                      5,021          4,442           5                    6        5,026  4,448
    Cash and cash equivalents, end of year                         $ 3,767         $ 5,021    $     25         $          5     $ 3,792 $ 5,026
                                                                                                                                               
    The accompanying notes are an integral part of these financial statements 
 

 

 

 

 

 

 

 

 

 


                                                                   17
                      NOTES TO FINANCIAL STATEMENTS

                                     September 30, 2012 and 2011
 


                                Note 1: Organization and Purpose
    The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal corporation created
by Title IV of the Employee Retirement Income Security Act of 1974 (ERISA) and is subject to the
provisions of the Government Corporation Control Act. Its activities are defined by ERISA, as that act has
been amended over the years. The Corporation insures the pension benefits, within statutory limits, of
participants in covered single-employer and multiemployer defined benefit pension plans.
    ERISA requires that PBGC programs be self-financing. ERISA provides that the U.S. Government is
not liable for any obligation or liability incurred by PBGC.
     For financial statement purposes, PBGC divides its business activity into two broad areas –
“Underwriting Activity” and “Financial Activity” – covering both single-employer and multiemployer
program segments. PBGC’s Underwriting Activity provides financial guaranty insurance in return for
insurance premiums (whether actually paid or not). Actual and expected probable losses that result from the
termination of underfunded pension plans are included in this category, as are actuarial adjustments based on
changes in actuarial assumptions, such as mortality. Financial Activity consists of the performance of
PBGC’s assets and liabilities. PBGC’s assets consist of premiums collected from defined benefit plan
sponsors, assets from distress or involuntarily terminated plans that PBGC has insured, and recoveries from
the former sponsors of those terminated plans. PBGC’s future benefit liabilities consist of those future
benefits, under statutory limits, that PBGC has assumed following distress or involuntary terminations.
Gains and losses on PBGC’s investments and changes in the value of PBGC’s future benefit liabilities (e.g.,
actuarial charges such as changes in interest rates and expected interest) are included in this area.
    As of September 30, 2012, the single-employer and multiemployer programs reported net positions of
$(29.1) billion and $(5.2) billion, respectively. The single-employer program had assets of approximately
$83.0 billion offset by total liabilities of $112.1 billion, which include a total present value of future benefits
(PVFB) of approximately $105.6 billion. As of September 30, 2012, the multiemployer program had assets of
$1.8 billion offset by approximately $7.0 billion in present value of nonrecoverable future financial assistance.
Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations for a significant
number of years; however, neither program at present has the resources to fully satisfy PBGC’s long-term
obligations to plan participants.
     PBGC’s $78.7 billion of total investments (including cash and investment income) represents the largest
component of PBGC’s Statements of Financial Condition combined assets of $84.8 billion at September 30,
2012. This amount of $78.7 billion (as compared to investments under management of $76.1 billion, as
reported on page 35) reflects the fact that PBGC experiences a recurring inflow of trusteed plan assets that
have not yet been incorporated into the PBGC investment program. For total investments (i.e., not the
investment program), cash and fixed-income securities ($54.2 billion) represents 69 percent of the total
investments, while equity securities ($22.6 billion) represents 29 percent of total investments. Private market
assets ($1.3 billion), comprised largely of private equity, private debt, and real estate, represent 2 percent of
the total investments.




                                                        18
Single-Employer and Multiemployer Program Exposure
     PBGC’s estimate of the total underfunding in single-employer plans sponsored by companies with credit
ratings below investment grade, and which were classified by PBGC as reasonably possible of termination as
of September 30, 2012, was $295 billion. The comparable estimates of the single-employer program’s
reasonably possible exposure for FY 2011 and FY 2010 were $227 billion and $170 billion, respectively.
These estimates are measured as of December 31 of the previous year (see Note 9). For FY 2012, this
exposure is concentrated in the following sectors: manufacturing (primarily automobile/auto parts, and
primary and fabricated metals), transportation (primarily airlines), services, and wholesale and retail trade.
     PBGC estimates that, as of September 30, 2012, it is reasonably possible that multiemployer plans may
require future financial assistance in the amount of $27 billion. The comparable estimates of the
multiemployer program’s reasonable possible exposure for FY 2011 and FY 2010 were $23 billion and $20
billion, respectively. The increase in FY 2012 is primarily due to two large plans in the reasonably possible
inventory. The sponsor of one plan, now with net liability of $20 billion, is in the “transportation,
communication, and utilities” industry category; the other, now with net liability of $6 billion, is in the
“agriculture, mining, and construction” industry category.
     There is significant volatility in plan underfunding and sponsor credit quality over time, which makes
long-term estimation of PBGC’s expected claims difficult. This volatility, and the concentration of claims in
a relatively small number of terminated plans, have characterized PBGC’s experience to date and will likely
continue. Among the factors that will influence PBGC’s claims going forward are economic conditions
affecting interest rates, financial markets, and the rate of business failures.
    PBGC’s sources of information on plan underfunding are the most recent Section 4010 and PBGC
premium filings, and other submissions to the Corporation. PBGC publishes Table S-49, “Various Measures
of Underfunding in PBGC-Insured Plans,” in its Pension Insurance Data Book where the limitations of the
estimates are fully and appropriately described.
     Under the single-employer program, PBGC is liable for the payment of guaranteed benefits with respect
only to underfunded terminated plans. An underfunded plan may terminate only if PBGC or a bankruptcy
court finds that one of the four conditions for a distress termination, as defined in ERISA, is met or if PBGC
involuntarily terminates a plan under one of five specified statutory tests. The net liability assumed by PBGC
is generally equal to the present value of the future benefits payable by PBGC less amounts provided by the
plan’s assets and amounts recoverable by PBGC from the plan sponsor and members of the plan sponsor’s
controlled group, as defined by ERISA.
     Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance from
PBGC to allow the plan to continue to pay participants their guaranteed benefits. PBGC recognizes
assistance as a loss to the extent that the plan is not expected to be able to repay these amounts from future
plan contributions, employer withdrawal liability or investment earnings. Since multiemployer plans do not
receive PBGC assistance until fully insolvent, financial assistance is almost never repaid; for this reason such
assistance is fully reserved.




                                                       19
                            Note 2: Significant Accounting Policies
Basis of Presentation
    The accompanying financial statements have been prepared in accordance with accounting principles
generally accepted in the United States of America (U.S. GAAP). The preparation of the financial statements
in conformity with U.S. GAAP requires management to make estimates and assumptions that affect the
reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at the date of the
financial statements and the reported amounts of revenues and expenses during the reporting period.
Estimates and assumptions may change over time as new information is obtained or subsequent
developments occur. Actual results could differ from those estimates.

Recent Accounting Developments
    During FY 2012, PBGC implemented FASB Accounting Standards update No. 2011-04, Fair Value
Measurement (Topic 820), Amendments to Achieve Common Fair Value Measurement and Disclosure Requirements in
U.S. GAAP and IFRSs. This Update includes disclosure of the valuation techniques to price Level 3 fair
value measurements, as well as disclosure of the sensitivity of different inputs into the valuation process. In
addition, PBGC implemented FASB Accounting Standards Update No. 2011-03, Transfers and Servicing
(Topic 860), Reconsideration of Effective Control for Repurchase Agreements. This Update addresses the rescission of
financial reporting disclosure requirements effective in fiscal year 2011 to eliminate the collateral maintenance
implementation guidance. See Note 3 for disclosures of Repurchase Agreements.
     During FY 2011, PBGC implemented FASB Accounting Standards Update No. 2009-16, Transfers and
Servicing (Topic 860) – Accounting for Transfers of Financial Assets and FASB Accounting Standards Update No.
2011-02, Receivables (Topic 310) – A Creditor’s Determination of Whether a Restructuring is a Troubled Debt
Restructuring. Accounting Standards Update 2009-16 improves the relevance, representations, and
comparability of the information that PBGC provides in its financial reports regarding transfers of financial
assets. See Note 3 for disclosures regarding Securities Lending and Repurchase Agreements. Accounting
Standards Update 2011-02 requires disclosures for loan modifications that constitute troubled debt
restructurings. See Note 7 for disclosures on multiemployer financial assistance notes receivable.

Valuation Method
     A primary objective of PBGC’s financial statements is to provide information that is useful in assessing
PBGC’s present and future ability to ensure that its plan beneficiaries receive benefits when due.
Accordingly, PBGC values its financial assets at estimated fair value, consistent with the standards for
pension plans contained in the FASB Accounting Standards Codification Section 960, Defined Benefit Pension
Plans. PBGC values its liabilities for the present value of future benefits and present value of nonrecoverable
future financial assistance using assumptions derived from annuity prices from insurance companies, as
described in the Statement of Actuarial Opinion. As described in Section 960, the assumptions are “those
assumptions that are inherent in the estimated cost at the (valuation) date to obtain a contract with an
insurance company to provide participants with their accumulated plan benefits.” Also, in accordance with
Section 960, PBGC selects assumptions for expected retirement ages and the cost of administrative expenses
in accordance with its best estimate of anticipated experience.
     The FASB Accounting Standards Codification Section 820, Fair Value Measurements and Disclosures, defines
fair value, establishes a framework for measuring fair value in U.S. GAAP, and expands disclosures about fair
value measurements. Section 820 applies to accounting pronouncements that require or permit fair value
measurements. Prior to Section 820, there were different definitions of fair value with limited guidance for
applying those definitions in U.S. GAAP; additionally, the issuance for applying fair value was dispersed
among many accounting pronouncements that require fair value measurement.



                                                        20
Revolving and Trust Funds
    PBGC accounts for its single-employer and multiemployer programs’ revolving and trust funds on an
accrual basis. Each fund is charged its portion of the benefits paid each year. PBGC includes totals for
both the revolving and trust funds for presentation purposes in the financial statements; however, the single-
employer and multiemployer programs are separate programs by law and, therefore, PBGC also reports them
separately.
     ERISA provides for the establishment of the revolving fund where premiums are collected and held.
The assets in the revolving fund are used to cover deficits incurred by plans trusteed and to provide funds for
financial assistance. The Pension Protection Act of 1987 created a single-employer revolving fund (fund 7)
that is credited with all premiums in excess of $8.50 per participant, including all penalties and interest
charged on these amounts, and its share of earnings from investments. This fund may not be used to pay
PBGC’s administrative costs or the benefits of any plan terminated prior to October 1, 1988, unless no other
amounts are available.
    The trust funds include assets (e.g., pension plan investments) PBGC assumes (or expects to assume)
once a terminated plan has been trusteed, and related investment income. These assets generally are held by
custodian banks. The trust funds support the operational functions of PBGC.
    The trust funds reflect accounting activity associated with:
    1) trusteed plans – plans for which PBGC has legal responsibility – the assets and liabilities are reflected
       separately on PBGC’s Statements of Financial Condition, the income and expenses are included in
       the Statements of Operations and Changes in Net Position and the cash flows from these plans are
       included in the Statements of Cash Flows.
    2) plans pending termination and trusteeship – plans for which PBGC has begun the process for
       termination and trusteeship by fiscal year-end – the assets and liabilities for these plans are reported
       as a net amount on the liability side of the Statements of Financial Condition under “Present value of
       future benefits, net.” For these plans, the income and expenses are included in the Statements of
       Operations and Changes in Net Position, but the cash flows are not included in the Statements of
       Cash Flows.
    3) probable terminations – plans that PBGC determines are likely to terminate and be trusteed by
       PBGC – the assets and liabilities for these plans are reported as a net amount on the liability side of
       the Statements of Financial Condition under “Present value of future benefits, net.” The accrued
       loss from these plans is included in the Statements of Operations and Changes in Net Position as
       part of “Losses from completed and probable terminations.” The cash flows from these plans are
       not included in the Statements of Cash Flows. PBGC cannot exercise legal control over a plan’s
       assets until it becomes trustee.

Allocation of Revolving and Trust Funds
    PBGC allocates assets, liabilities, income and expenses to the single-employer and multiemployer
programs’ revolving and trust funds to the extent that such amounts are not directly attributable to a specific
fund. Revolving fund investment income is allocated on the basis of each program’s average cash and
investments available during the year, while the expenses are allocated on the basis of each program’s present
value of future benefits and present value of nonrecoverable future financial assistance. Revolving fund
assets and liabilities are allocated according to the year-end equity of each program’s revolving funds. Plan
assets acquired by PBGC and commingled at PBGC’s custodian bank are credited directly to the appropriate
fund, while the earnings and expenses on the commingled assets are allocated to each program’s trust funds
on the basis of each trust fund’s value, relative to the total value of the commingled fund.




                                                      21
Cash and Cash Equivalents
    Cash includes cash on hand and demand deposits. Cash equivalents are investments with original
maturities of one business day and highly liquid investments that are readily convertible into cash within one
business day.

Securities Lending Collateral
     PBGC participates in a securities lending program administered by its custodian bank. The custodian
bank requires collateral that equals 102 percent to 105 percent of the securities lent. The collateral is held by
the custodian bank. The custodian bank either receives cash or non-cash as collateral or returns collateral to
cover mark-to-market changes. Any cash collateral received is invested by PBGC’s investment agent. In
addition to the lending program managed by the custodian bank, some of PBGC’s investment managers are
authorized to invest in securities purchased under resale agreements (an agreement with a commitment by the
seller to buy a security back from the purchaser at a specified price at a designated future date), and securities
sold under repurchase agreements.

Investment Valuation and Income
    PBGC bases market values on the last sale of a listed security, on the mean of the “bid-and-ask” for
nonlisted securities, or on a valuation model in the case of fixed income securities that are not actively traded.
These valuations are determined as of the end of each fiscal year. Purchases and sales of securities are
recorded on the trade date. In addition, PBGC invests in and discloses its derivative investments in
accordance with the guidance contained in the FASB Accounting Standards Codification Section 815,
Derivatives and Hedging. Investment income is accrued as earned. Dividend income is recorded on the ex-
dividend date. Realized gains and losses on sales of investments are calculated using first-in, first-out for the
revolving fund and average cost for the trust fund. PBGC marks the plan’s assets to market and any increase
or decrease in the market value of a plan’s assets occurring after the date on which the plan is terminated
must, by law, be credited to or suffered by PBGC.

Securities Purchased Under Resale Agreements
    Securities purchased under resale agreements are agreements whereby the purchaser agrees to buy
securities from the seller, and subsequently sell them back at a pre-agreed price and date. Those greater than
one day are reported under “Fixed maturity securities” as “Securities purchased under resale agreements” in
the Note 3 table entitled “Investments of Single-Employer Revolving Funds and Single-Employer Trusteed
Plans,” on page 61. Resale agreements that mature in one day are included in “Cash and cash equivalents”
which are reported on the Statements of Financial Condition.

Sponsors of Terminated Plans
     The amounts due from sponsors of terminated plans or members of their controlled group represent the
settled, but uncollected, claims for employer liability (underfunding as of date of plan termination) and for
contributions due their plan less an allowance for estimated uncollectible amounts. PBGC discounts any
amounts expected to be received beyond one year for time and risk factors. Some agreements between
PBGC and plan sponsors provide for contingent payments based on future profits of the sponsors. The
Corporation will report any such future amounts in the period they are realizable. Income and expenses
related to amounts due from sponsors are reported in the underwriting section of the Statements of
Operations and Changes in Net Position. Interest earned on settled claims for employer liability and due and
unpaid employer contributions (DUEC) is reported as “Income: Other.” The change in the allowances for
uncollectible employer liability and DUEC is reported as “Expenses: Other.”




                                                       22
Premiums
     Premiums receivable represent the estimated earned but unpaid portion of the premiums for plans that
have a plan year commencing before the end of PBGC’s fiscal year and past due premiums deemed
collectible, including penalties and interest. The liability for unearned premiums represents an estimate of
payments received during the fiscal year that cover the portion of a plan’s year after PBGC’s fiscal year-end.
“Premium income, net” represents actual and estimated revenue generated from defined benefit pension plan
premium filings as required by Title IV of ERISA less bad debt expense for premiums, interest, and penalties
(see Note 11).
    In accordance with the FASB Accounting Standards Codification Section 605-10-S99, Revenue Recognition,
PBGC has strengthened the revenue recognition policy for termination premiums in bankruptcy and non-
bankruptcy liquidations. The effect of this did not result in material change for our financial statements. We
did not adjust any prior-period information. The effect of the change on income from operations and other
items are immaterial, and there is no material effect on any other components of equity or net assets.

Capitalized Assets
    Capitalized assets include furniture and fixtures, electronic processing equipment and internal-use
software. This includes costs for internally developed software incurred during the application development
stage (system design including software configuration and software interface, coding, testing including parallel
processing phase). These costs are shown net of accumulated depreciation and amortization.

Present Value of Future Benefits (PVFB)
     The PVFB is the estimated liability for future pension benefits that PBGC is or will be obligated to pay
the participants of trusteed plans and the net liability for plans pending termination and trusteeship. The
PVFB liability (including trusteed plans as well as plans pending termination and trusteeship) is stated as the
actuarial present value of estimated future benefits less the present value of estimated recoveries from
sponsors and members of their controlled group and the assets of plans pending termination and trusteeship
as of the date of the financial statements. PBGC also includes the estimated liabilities attributable to plans
classified as probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan
assets). PBGC uses assumptions to adjust the value of those future payments to reflect the time value of
money (by discounting) and the probability of payment (by means of decrements, such as for death or
retirement). PBGC also includes anticipated expenses to settle the benefit obligation in the determination of
the PVFB. PBGC’s benefit payments to participants reduce the PVFB liability.
    The values of the PVFB are particularly sensitive to changes in underlying estimates and assumptions.
These estimates and assumptions could change and the impact of these changes may be material to PBGC’s
financial statements (see Note 6).
     (1) Trusteed Plans–represents the present value of future benefit payments less the present value of
expected recoveries (for which a settlement agreement has not been reached with sponsors and members of
their controlled group) for plans that have terminated and been trusteed by PBGC prior to fiscal year-end.
Assets are shown separately from liabilities for trusteed plans.
     (2) Pending Termination and Trusteeship–represents the present value of future benefit payments less
the plans’ net assets (at fair value) anticipated to be received and the present value of expected recoveries (for
which a settlement agreement has not been reached with sponsors and members of their controlled group)
for plans for which termination action has been initiated and/or completed prior to fiscal year-end. Unlike
trusteed plans, the liability for plans pending termination and trusteeship is shown net of plan assets.
    (3) Settlements and Judgments–represents estimated liabilities related to settled litigation.
    (4) Net Claims for Probable Terminations–In accordance with the FASB Accounting Standards
Codification Section 450, Contingencies, PBGC recognizes net claims for probable terminations which
represent PBGC’s best estimate of the losses, net of plan assets, and the present value of expected recoveries

                                                       23
(from sponsors and members of their controlled group) for plans that are likely to terminate in the future.
The PBGC threshold for recognition of net claims for probable termination is $50 million or more of
underfunding. These estimated losses are based on conditions that existed as of PBGC’s fiscal year-end.
Management believes it is likely that one or more events subsequent to PBGC’s fiscal year-end will occur,
confirming the loss.
     Criteria used for classifying a specific single-employer plan as a probable termination include, but are not
limited to, one or more of the following conditions: the plan sponsor is in liquidation or comparable state
insolvency proceeding with no known solvent controlled group member; sponsor has filed or intends to file
for distress plan termination and the criteria will likely be met; or PBGC is considering the plan for
involuntary termination. In addition, management takes into account other economic events and factors in
making judgments regarding the classification of a plan as a probable termination. These events and factors
may include, but are not limited to: the plan sponsor is in bankruptcy or has indicated that a bankruptcy
filing is imminent; the plan sponsor has stated that plan termination is likely; the plan sponsor has received a
going concern opinion from its independent auditors; or the plan sponsor is in default under existing credit
agreement(s).
     In addition, a reserve for small unidentified probable losses and incurred but not reported (IBNR) claims
is recorded based on an actuarial loss development methodology (ratio method) (see Note 6).
     (5) PBGC identifies certain plans as high-risk if the plan sponsor is in Chapter 11 proceedings or the
sponsor’s senior unsecured debt is rated CCC+/Caa1 or lower by S&P or Moody’s respectively. PBGC
specifically reviews each plan identified as high-risk and classifies those plans as probable if, based on
available evidence, PBGC concludes that plan termination is likely (based on criteria described in (4) above).
Otherwise, high-risk plans are classified as reasonably possible.
     (6) In accordance with Section 450, PBGC’s exposure to losses from plans of companies that are
classified as reasonably possible is disclosed in the footnotes. In order for a plan sponsor to be specifically
classified as reasonably possible, it must first have $5 million or more of underfunding, as well as meet
additional criteria. Criteria used for classifying a company as reasonably possible include, but are not limited
to, one or more of the following conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver
pending or outstanding with the Internal Revenue Service; sponsor missed minimum funding contribution;
sponsor’s bond rating is below-investment-grade for Standard & Poor’s (BB+) or Moody’s (Ba1); or sponsor
has no bond rating but the Dun & Bradstreet Financial Stress Score is below the threshold considered to be
investment grade (see Note 9).

Present Value of Nonrecoverable Future Financial Assistance
    In accordance with Title IV of ERISA, PBGC provides financial assistance to multiemployer plans, in the
form of loans, to enable the plans to pay guaranteed benefits to participants and reasonable administrative
expenses. These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of
each plan.
     The present value of nonrecoverable future financial assistance represents the estimated nonrecoverable
payments to be provided by PBGC in the future to multiemployer plans that will not be able to meet their
benefit obligations. The present value of nonrecoverable future financial assistance is based on the difference
between the present value of future guaranteed benefits and expenses and the market value of plan assets,
including the present value of future amounts expected to be paid by employers, for those plans that are
expected to require future assistance. The amount reflects the rates at which, in the opinion of management,
these liabilities (net of expenses) could be settled in the market for single-premium nonparticipating group
annuities issued by private insurers (see Note 7).
     A liability for a particular plan is included in the “Present Value of Nonrecoverable Future Financial
Assistance” when it is determined that the plan is currently, or will likely become in the future, insolvent and
will require assistance to pay the participants their guaranteed benefit. In accordance with the FASB
Accounting Standards Codification Section 450, Contingencies, PBGC recognizes net claims for probable

                                                       24
insolvencies for plans that are likely to become insolvent and require financial assistance in the future.
Projecting a future insolvency requires considering several complex factors, such as an estimate of future cash
flows, future mortality rates, and age of participants not in pay status.
     Each year, PBGC analyzes insured multiemployer plans to identify those plans that are at risk of
becoming claims on the insurance program. Regulatory filings with PBGC and the other ERISA agencies are
important to this analysis and determination of risk. For example, a multiemployer plan that no longer has
contributing employers files a notice of termination with PBGC. In general, if a terminated plan’s assets are
less than the present value of its liabilities, PBGC considers the plan a probable risk of requiring financial
assistance in the future.
     PBGC also analyzes ongoing multiemployer plans (i.e., plans that continue to have employers making
regular contributions for covered work) to determine whether any such plans may be probable or possible
claims on the insurance program. In conducting this analysis each year, PBGC examines plans that are
chronically underfunded, have poor cash flow trends, a falling contribution base, and that may lack a
sufficient asset cushion to weather income losses. A combination of these factors, or any one factor that is of
sufficient concern, leads to a more detailed analysis of the plan’s funding and the likelihood that the
contributing employers will be willing and able to maintain the plan.
    PBGC utilizes specific criteria for insolvent (PBGC’s insurable event for multiemployer plans), probable,
and reasonably possible classification of multiemployer plans. The criteria are as follows:
        •    Any multiemployer plans currently receiving financial assistance are classified as insolvent.
        •    Terminated, underfunded multiemployer plans (i.e., “wasting trusts”) are classified as probable.
        •    Ongoing multiemployer plans projected to become insolvent:
                 o   within ten years are classified as probable,
                 o   from ten to twenty years are classified as reasonably possible.
In general, the date of insolvency is estimated by projecting plan cash flows using PBGC’s actuarial
assumptions for terminated plans, but also considered are projections based on other assumptions, such as
those used by the plan actuary.
Note that PBGC has initiated a comprehensive review of accounting policies and processes addressing the
classification and measurement of potential claims for financial assistance by multiemployer plans that may
become insolvent in the future. This review will include (1) benchmarking the current accounting policy
against other, similar contingent liability accounting policies, (2) identifying and analyzing alternative
contingent liability processes, and (3) developing recommendations on possible modification to the current
policies and processes. PBGC anticipates that any such modifications will be adopted and implemented by
the end of fiscal year 2013. These steps are consistent with PBGC’s ongoing efforts to review the efficacy of
its accounting policies each year.
The present value of nonrecoverable future financial assistance is presented in the Liability section of the
Statements of Financial Condition (see Note 7).

Securities Sold Under Repurchase Agreements
     Securities sold under repurchase agreements are agreements with a commitment by the seller to buy a
security back from the purchaser at a specified price and designated future date. These agreements represent
collateralized short-term loans for which the collateral may be a treasury security, money market instrument,
federal agency security, or mortgage-backed security. On the Statements of Financial Condition, securities
sold under repurchase agreements are reported as a liability, “Securities sold under repurchase agreements” at
the amounts at which the securities will be subsequently reacquired.



                                                       25
Administrative Expenses
     These operating expenses (for either the single-employer or multiemployer insurance programs) are
amounts paid and accrued for services rendered or while carrying out other activities that constitute PBGC’s
ongoing operations, e.g., payroll, contractual services, office space, material and supplies, etc. The expense
allocation methodology fully captures the administrative expenses attributable to either the single-employer or
multiemployer insurance programs.

Other Expenses
    These expenses represent an estimate of the net amount of receivables deemed to be uncollectible during
the period. The estimate is based on the most recent status of the debtor (e.g., sponsor), the age of the
receivables and other factors that indicate the element of uncollectibility in the receivables outstanding.

Losses from Completed and Probable Terminations
     Amounts reported as losses from completed and probable terminations represent the difference as of the
actual or expected date of plan termination (DOPT) between the present value of future benefits (including
amounts owed under Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related
plan assets and the present value of expected recoveries from sponsors and members of their controlled
group (see Note 12). When a plan terminates, the previously recorded probable net claim is reversed and
newly estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line “PVFB - Plans
pending termination and trusteeship” (this value is usually different than the amount previously reported),
with any change in the estimate being recorded in the Statements of Operations and Changes in Net Position.
In addition, the plan’s net income from date of plan termination to the beginning of PBGC’s fiscal year is
included as a component of losses from completed and probable terminations for plans with termination
dates prior to the year in which they were added to PBGC’s inventory of terminated plans.

Actuarial Adjustments and Charges (Credits)
     PBGC classifies actuarial adjustments related to insurance based changes in method and the effect of
experience as underwriting activity; actuarial adjustments are the result of the movement of plans from one
valuation methodology to another, e.g., nonseriatim (calculating the liability for the group) to
seriatim (calculating separate liability for each person), and of new data (e.g., deaths, revised participant data).
Actuarial charges (credits) related to changes in interest rates and expected interest is classified as financial
activity. These adjustments and charges (credits) represent the change in the PVFB that results from applying
actuarial assumptions in the calculation of future benefit liabilities (see Note 6).
     To ensure consistency and comparability of the information presented in PBGC’s FY 2011 and FY 2012
financial statements and consistent with the presentation for the single-employer program, beginning FY
2012, losses from financial assistance in the multiemployer program have been reclassified to actuarial
charges, credits, and adjustments. These categories provide improved transparency for those plans receiving
and/or about to begin receiving financial assistance from the multiemployer program. In our FY 2011
Statements of Operations and Changes in Net Position, losses from financial assistance decreased $99 million
and actuarial adjustments increased $37 million, resulting in a reclassification to the underwriting gain of $62
million. Furthermore, in the financial portion of the Statements of Operations and Changes in Net Position,
due to expected interest increased by $52 million and due to change in interest rates increased by $10 million,
resulting in a reclassification to the financial loss of $62 million. All such changes were reclassified within the
FY 2011 Statements of Operations and Changes in Net Position, and have no impact on FY 2011 net
position. Likewise, such FY 2012 Statements of Operations and Changes in Net Position reclassifications
have no impact on FY 2012 net position.




                                                        26
Depreciation and Amortization
     PBGC calculates depreciation on the straight-line basis over estimated useful lives of 5 years for
equipment and 10 years for furniture and fixtures. PBGC calculates amortization for capitalized software,
which includes certain costs incurred for purchasing and developing software for internal use, on the straight-
line basis over estimated useful lives not to exceed 5 years, commencing on the date that the Corporation
determines that the internal-use software is implemented. Routine maintenance and leasehold improvements
(the amounts of which are not material) are charged to operations as incurred. Capitalization of software cost
occurs during the development stage and costs incurred during the preliminary project and post-
implementation stages are expensed as incurred.

                                         Note 3: Investments
     Premium receipts are invested through the revolving fund in U.S. Treasury securities. The trust funds
include assets PBGC assumes or expects to assume with respect to terminated plans (e.g., recoveries from
sponsors) and investment income thereon. These assets generally are held by custodian banks. The basis and
market value of the investments by type are detailed below as well as related investment profile data. The
basis indicated is cost of the asset if assumed after the date of plan termination or the market value at date of
plan termination if the asset was assumed as a result of a plan’s termination. PBGC marks the plan’s assets to
market and any increase or decrease in the market value of a plan’s assets occurring after the date on which
the plan is terminated must, by law, be credited to or suffered by PBGC. Investment securities denominated
in foreign currency are translated into U.S. dollars at the prevailing exchange rates at period end. Purchases
and sales of investment securities, income, and expenses are translated into U.S. dollars at the prevailing
exchange rates on the respective dates of the transactions. The portfolio does not isolate that portion of the
results of operations resulting from changes in foreign exchange rates of investments from the fluctuations
arising from changes in market prices of securities held. Such fluctuations are included with the net realized
and unrealized gain or loss on investments. For PBGC’s securities, unrealized holding gains and losses are
both recognized by including them in earnings. Unrealized holding gains and losses measure the total change
in fair value – consisting of unpaid interest income earned or unpaid accrued dividend and the remaining
change in fair value from holding the security.
    To Be Announced (TBA) and Bond Forward transactions are recorded as regular buys and sells of
investments and not as derivatives. TBA is a contract for the purchase or sale of mortgage-backed securities
to be delivered on a future date. The term TBA is derived from the fact that the actual mortgage-backed
security that will be delivered to fulfill a TBA trade is not designated at the time the trade is made. The
securities are to be announced 48 hours prior to the established trade settlement date. TBAs are issued by
FHLMC, FNMA, and GNMA. In accordance with FASB Accounting Standards Codification Section 815,
Derivatives and Hedging, TBA and Bond Forward contracts are deemed regular way trades as they are completed
within the time frame generally established by regulations and conventions in the market place or by the
exchange on which they are executed. Thus, recording of TBA and Bond Forward contracts recognizes the
acquisition or disposition of the securities at the full contract amounts on day one of the trade.
     In prior years, foreign exchange forward contracts and swap contracts were recorded gross of receivables
and payables. Beginning in FY 2010, foreign exchange forwards are included in “Fixed maturity securities”
rather than “Receivables, net – Derivative contracts” or “Derivative contracts” (liabilities). Swaps are netted
rather than recorded at gross levels for the individual contracts as “Receivables, net – Derivative contracts”
and “Derivative contracts” (liabilities). Certain amounts shown as futures for receivables and payables were
offset to reflect a net margin variation for one recently trusteed plan. Bond forwards and TBAs have been
reclassified to “Receivables, net – Sale of securities” and “Due for purchases of securities” from derivative
contracts receivables and payables.
    As the following table illustrates, the market value of investments of the single-employer program
increased significantly from September 30, 2011, to September 30, 2012.


                                                       27
INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS
AND SINGLE-EMPLOYER TRUSTEED PLANS
                                                                        September 30,                       September 30,
                                                                              2012                              2011
                                                                                   Market                                   Market
(Dollars in millions)                                                   Basis       Value                Basis               Value
Fixed maturity securities:
   U.S. Government securities                                        $21,122        $23,629           $20,935             $23,775
   Commercial paper/securities purchased                                 442             442                 6                   6
    under resale agreements
   Asset backed securities                                             3,350           3,509            5,088               5,150
   Pooled funds
        Domestic                                                         450             408              374                 393
        International                                                       0              0                 0                   0
        Global/other                                                        0              0                 0                   0
   Corporate bonds and other                                           9,798          11,073           11,021              11,765
   International securities                                            8,443           9,115            5,088               5,168
  Subtotal                                                            43,605          48,176           42,512              46,257
Equity securities:
   Domestic                                                            2,047           2,417            1,678               1,681
   International                                                         575             670            1,067               1,015
   Pooled funds
        Domestic                                                       8,128          10,798            6,377               7,990
        International                                                  5,805           8,733            5,373               7,308
        Global/other                                                        1              1                 3                   3
   Subtotal                                                           16,556          22,619           14,498              17,997
Private equity                                                         1,398           1,339            1,452               1,459
Real estate and real estate investment trusts                            445             511              447                 536
Insurance contracts and other investments                                 84              77                23                  22
Total*                                                               $62,088        $72,722    **     $58,932             $66,271

*Total includes securities on loan at September 30, 2012, and September 30, 2011, with a market value of $4.298 billion and $6.125
billion, respectively.
**This total of $72.72 billion of investments at market value represents the single-employer assets only. It differs from the total
investments of $78.74 billion shown on page 35 of this report which includes investments of the multiemployer program, cash and
cash equivalents and accrued investment income.

INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
                                                                        September 30,                       September 30,
                                                                              2012                              2011
                                                                                   Market                                   Market
(Dollars in millions)                                                   Basis       Value                Basis               Value
Fixed maturity securities:
   U.S. Government securities                                         $1,568          $1,767           $1,533              $1,720
Equity securities                                                           0              0                 0                   0
Total                                                                 $1,568          $1,767           $1,533              $1,720




                                                            28
 

        INVESTMENT PROFILE
                                                                                September 30, 
                                                                            2012           2011 
          Fixed Income Assets                                                              
          Average Quality                                                         AA           AA 
          Average Maturity (years)                                               14.0         14.9 
          Duration (years)                                                        9.3          9.6  
          Yield to Maturity (%)                                                   2.7          3.3  
          Equity Assets                                                                          
          Average Price/Earnings Ratio                                           15.6          12.9 
          Dividend Yield (%)                                                      2.6            2.9  
          Beta                                                                   1.03          1.03 



Derivative Instruments
     PBGC assigns investment discretion and grants specific authority to all of its investment managers to
invest according to specific portfolio investment guidelines established by PBGC. PBGC further limits the
use of derivatives by investment managers through tailored provisions in the investment guidelines with
investment managers consistent with PBGC’s investment policy statement and overall risk tolerance. These
investment managers, who act as fiduciaries to PBGC, determine when it may or may not be appropriate to
utilize derivatives in the portfolio(s) for which they are responsible. Investments in derivatives carry many of
the same risks of the underlying instruments and carry additional risks that are not associated with direct
investments in the securities underlying the derivatives. Furthermore, risks may arise from the potential
inability to terminate or sell derivative positions, although derivative instruments are generally more liquid
than physical market instruments. A liquid secondary market may not always exist for certain derivative
positions at any time. Over-the-counter derivative instruments also involve counterparty risk that the other
party to the derivative instrument will not meet its obligations.
     The use of derivatives by PBGC investment managers is restricted in-so-far as portfolios cannot utilize
derivatives to create leverage in the portfolios for which they are responsible. That is, the portfolios shall not
utilize derivatives to leverage the portfolio beyond the maximum risk level associated with a fully invested
portfolio of physical securities.
     Derivative instruments are used (1) to mitigate risk (e.g., adjust duration or currency exposures), (2) to
enhance investment returns, and/or (3) as liquid and cost-efficient substitutes for positions in physical
securities. These derivative instruments are not designated as accounting hedges consistent with FASB
Accounting Standards Codification Section 815, Derivatives and Hedging, which requires an active designation as
a prerequisite for any hedge accounting. PBGC utilizes a no hedging designation which results in the gain or
loss on a derivative instrument to be recognized currently in earnings. Derivatives are accounted for at fair
market value in accordance with the FASB Accounting Standards Codification Section 815, Derivatives and
Hedging. Derivatives are marked to market with changes in value reported as a component of financial
income on the Statements of Operations and Changes in Net Position. PBGC presents all derivatives at fair
value on the Statements of Financial Condition.
    During fiscal years 2012 and 2011, PBGC, through its investment managers, invested in investment
products that used various U.S. and non-U.S. derivative instruments including but not limited to: S&P 500
index futures, options, money market futures, government bond futures, interest rate, credit default and total
return swaps and swaption contracts, stock warrants and rights, debt option contracts, and foreign currency
forward and option contracts. Some of these derivatives are traded on organized exchanges and thus bear

                                                       29
minimal counterparty risk. The counterparties to PBGC’s non-exchange-traded derivative contracts are
major financial institutions subject to ISDA (International Swaps and Derivatives Association, Inc.) master
agreements. PBGC monitors its counterparty risk and exchanges collateral under most contracts to further
support performance by its counterparties.
     A futures contract is an agreement between a buyer or seller and an established futures exchange
clearinghouse in which the buyer or seller agrees to take or make a delivery of a specific amount of a financial
instrument at a specified price on a specific date (settlement date) in the future. The futures exchanges and
clearinghouses clear, settle, and guarantee transactions occurring through their facilities. Upon entering into a
futures contract, an “initial margin” amount (in cash or liquid securities) of generally one to six percent of the
face value indicated in the futures contract is required to be deposited with the broker. Open futures
positions are marked to market daily. Subsequent payments known as “variation margin” are made or
received by the portfolio dependent upon the daily fluctuations in value of the underlying contract. PBGC
maintains adequate liquidity in its portfolio to meet these margin calls.
     PBGC also invests in forward contracts. A forward foreign currency contract is a commitment to
purchase or sell a foreign currency at the settlement date (in the future) at a negotiated rate. Foreign currency
forward, futures, and option contracts may be used as a substitute for cash currency holdings, in order to
minimize currency risk exposure to changes in foreign currency exchange rates and to adjust overall currency
exposure to reflect the investment views of the fixed income and equity portfolio managers regarding
relationships between currencies.
     A swap is an agreement between two parties to exchange different financial returns on a notional
investment amount. The major forms of swaps traded are interest rate swaps, credit default swaps, and total
return swaps. PBGC uses swap and swaption (an option on a swap) contracts to adjust exposure to interest
rates, fixed income securities exposure, credit exposure, and equity exposure, and to generate income based
on the investment views of the portfolio managers regarding interest rates, indices and individual issues.
    Interest rate swaps involve exchanges of fixed rate and floating rate interest. Interest rate swaps are often
used to alter exposure to interest rate fluctuations, by swapping fixed rate obligations for floating rate
obligations, or vice versa. The counterparties to the swap agree to exchange interest payments on specific
dates, according to a predetermined formula. The payment flows are usually netted against each other, with
one party paying the difference to the other.
    A credit default swap is a contract between a buyer and seller of protection against pre-defined credit
events. PBGC may buy or sell credit default swap contracts to seek to increase the portfolio’s income or to
mitigate the risk of default on portfolio securities.
    A total return swap is a contract between a buyer and seller of exposures to certain asset classes such as
equities. PBGC may buy or sell total return contracts to seek to increase or reduce the portfolio’s exposure
to certain asset classes.
    An option contract is a contract in which the writer of the option grants the buyer of the option the right
to purchase from (call option) or sell to (put option) the writer a designated instrument at a specified price
within a specified period of time.
     Stock warrants and rights allow PBGC to purchase securities at a stipulated price within a specified time
limit.
    For the fiscal years ended September 30, 2012 and 2011, gains and losses from settled margin calls are
reported in Investment income on the Statements of Operations and Changes in Net Position. Securities and
cash are pledged as collateral for derivative contracts (e.g., futures and swaps) are recorded as a receivable or
payable.




                                                       30
     Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting Standards Codification
Section 815, Derivatives and Hedging. This standard requires the disclosure of fair values of derivative
instruments and their gains and losses in its financial statements of both the derivative positions existing at
period end and the effect of using derivatives during the reporting period. The first table below identifies the
location of derivative fair market values (FMV) on the Statements of Financial Condition, as well as the
notional amounts, while the second table identifies the location of derivative gains and losses on the
Statements of Operations and Changes in Net Position as of September 30, 2012, and September 30, 2011.



 FAIR VALUES OF DERIVATIVE INSTRUMENTS
                                   Asset Derivative
                                                            September 30, 2012                                    September 30, 2011
                                Statements of Financial                              Statements of Financial
 (Dollars in millions)          Condition Location         Notional      FMV         Condition Location          Notional       FMV
 Futures                        Derivative Contracts        $ 1,323        $4        Derivative Contracts         $ 3,586        $90

 Swap agreements
   Interest rate swaps          Investments-Fixed             1,904          12      Investments-Fixed              1,330         (15)
   Credit default swaps         Investments-Fixed             2,180          14      Investments-Fixed              2,150           6

 Option contracts               Investments-Fixed               146           2      Investments-Fixed                121           1

 Forwards - foreign exchange    Investments-Fixed             4,650        (27)      Investments-Fixed              3,021         26
                                Investments-Equity                0          0       Investments-Equity                45          1


                                Liability Derivative
                                                            September 30, 2012                                    September 30, 2011
                                Statements of Financial                              Statements of Financial
 (Dollars in millions)          Condition Location         Notional     FMV          Condition Location          Notional        FMV
 Futures                        Derivative Contracts        $2,283      $ (9)         Derivative Contracts        $ 2,148       $ (2)

 Option contracts               Derivative Contracts          1,042         (11)      Derivative Contracts          1,202          (4)



   Additional information specific to derivative instruments is disclosed in Note 4 – Derivative Contracts, and Note 5 – Fair
   Value Measurements.




                                                              31
EFFECT OF DERIVATIVE CONTRACTS ON THE STATEMENTS OF OPERATIONS
AND CHANGES IN NET POSITION
                                                                                                  Amount of Gain or (Loss)
                                               Location of Gain or                                Recognized in Income on
                                               (Loss) Recognized                                          Derivatives
                                               in Income on                                        Sept. 30,       Sept. 30,
(Dollars in millions)                          Derivatives                                           2012            2011
Futures
  Contracts in a receivable position           Investment Income-Fixed                                     $9               ($38)
  Contracts in a receivable position           Investment Income-Equity                                     0                  0
  Contracts in a payable position              Investment Income-Fixed                                     69                177
  Contracts in a payable position              Investment Income-Equity                                     0                  0

Swap agreements
  Interest rate swaps                          Investment Income-Fixed                                     14                 0
  Credit default swaps                         Investment Income-Fixed                                     38                12

Option contracts
  Options purchased (long)                     Investment Income-Fixed                                    (14)                 3
  Options purchased (long)                     Investment Income-Equity                                     0                  0
  Options written (sold short)                 Investment Income-Fixed                                      4                  2
  Options written (sold short)                 Investment Income-Equity                                     0                  0

Forward contracts
  Forwards - foreign exchange                  Investment Income-Fixed                                     14                (42)
                                               Investment Income-Equity                                     0                  1

Additional information specific to derivative instruments is disclosed in Note 4 - Derivative Contracts and Note 5 - Fair
Value Measurements.
                                        




                                                        32
Securities Lending
     PBGC participates in a securities lending program administered by its custodian bank whereby the
custodian bank lends PBGC’s securities to third parties. The custodian bank requires initial collateral from
the borrower that equals 102 percent to 105 percent of the securities lent. Collateral consisting of cash and
non-cash instruments is held by the custodian bank. The custodian bank either requires additional collateral
or returns collateral to cover daily market value changes. The margin call for additional collateral occurs
when levels fall below the initial collateral requirement, except for U.S. Government securities and sovereign
debt issued by non-U.S. Governments where the margin call may not occur until collateral held falls below
certain levels depending upon the composition of collateral but never lower than 100 percent of the securities
lent. Any cash collateral received is invested.
    The total value of securities on loan at September 30, 2012, and September 30, 2011, was $4.298 billion
and $6.125 billion, respectively. The decrease in loan balances was mainly attributable to decreased utilization
of PBGC’s U.S. Government Securities due to lower demand. In addition, low yields made lending U.S.
Government securities less attractive.
    U.S. Government securities continue to represent PBGC’s largest amount of assets on loan. The FY
2012 year-end lendable balance for U.S. Government securities was approximately $7.0 billion or 54 percent
of PBGC’s overall lendable securities balance; while the September 30, 2011 balance for U.S. Government
securities was approximately $8.2 billion or 33 percent of PBGC’s overall lendable security balance. Of the
$4.298 billion market value of securities on loan at September 30, 2012, approximately 54 percent are lent
U.S. Government securities. Utilization levels of U.S. Government securities, U.S. corporate bonds and U.S.
equities on September 30, 2012 were lower than a year earlier, but was partially offset by the increased loan
balances of U.S. corporate bonds and U.S. equities.
      The amount of cash collateral received for these loaned securities was $3.425 billion at September 30,
2012, and $4.587 billion at September 30, 2011. These amounts are recorded as assets and are offset with a
corresponding liability. For lending agreements collateralized by securities, no accompanying asset or liability
is recorded, as PBGC does not sell or re-pledge the associated collateral. For those securities lending
activities that PBGC directs through its custodian manager, the corporation chooses to invest proceeds from
securities lending in the Quality A cash collateral pool.
    PBGC earned $19.1 million from its securities lending programs as of September 30, 2012. Also
contributing to PBGC’s securities lending income is its participation in certain pooled index funds. Net
income from securities lending is included in “Investment income – Fixed” on the Statements of Operations
and Changes in Net Position. As of September 30, 2012, PBGC loaned out $4.298 billion in securities of
approximately $26.959 billion of securities available for securities lending.
    PBGC does not have the right by contract or custom to sell or re-pledge non-cash collateral; it is no
longer reported on the Statements of Financial Condition. Non-cash collateral, which consists primarily of
U.S. Treasuries, has recently increased to material levels.

Repurchase Agreements
    PBGC’s repurchase agreements entitle and obligate PBGC to repurchase or redeem the same or
substantially the same securities that were previously transferred as collateralized securities. In addition, its
repurchase agreements require PBGC to redeem the collateralized securities, before maturity at a fixed
determinable price.
    As of September 30, 2012, PBGC had $36 million in Repurchase Agreements. This amount represents
maturities of one day and is reported as an asset and included in the “Cash and cash equivalents” balance.
There was no associated liability for these secured borrowings reported as “Securities sold under repurchase
agreements.” PBGC has no restrictions placed on the cash received for all of its outstanding repurchase
agreements as of September 30, 2012.


                                                        33
                                         Note 4: Derivative Contracts
    PBGC’s derivative financial instruments are recorded at fair value and are included on the Statements of
Financial Condition as investments and derivative contracts. Foreign exchange forwards are included in
“Fixed maturity securities”. Swaps are netted for the individual contracts as “Receivables, net – Derivative
contracts” and “Derivative contracts” (liabilities). Bond forwards and TBAs are reclassified as “Receivables,
net – Sale of securities” and “Due for purchases of securities” from derivative contracts receivables and
payables.
     Amounts in the table below represent the derivative contracts in a receivable position at financial
statement date. Collateral deposits of $79 million, which represent cash paid as collateral on certain derivative
contracts, are shown.


DERIVATIVE CONTRACTS
                                                                       September 30,                     September 30,
(Dollars in millions)                                                         2012                             2011
Open receivable trades on derivatives:
    Collateral deposits                                                          $79                                 $81
    Futures contracts                                                              4                                  90
    Interest rate swaps                                                            0                                   0
    Credit default swaps                                                           0                                   7
Total                                                                            $83                                $178




    Amounts in the Derivative Contracts table below represent derivative contracts in a payable position at
financial statement date which PBGC reflects as a liability. Collateral deposits of $72 million, which represent
cash received as collateral on certain derivative contracts, are included.
DERIVATIVE CONTRACTS
                                                                       September 30,                     September 30,
(Dollars in millions)                                                         2012                             2011
Open payable trades on derivatives:
    Collateral deposits                                                          $72                                $167
    Futures contracts                                                              9                                   2
    Interest rate swaps                                                            0                                   0
    Credit default swaps                                                           2                                   0
    Options-fixed income                                                          11                                   4
Total                                                                            $94                                $173




                                                       34
                                  Note 5: Fair Value Measurements
    Effective January 1, 2009, PBGC adopted the provisions of the FASB Accounting Standards Codification
Section 820, Fair Value Measurements and Disclosures. The standard does not require the measurement of
financial assets and liabilities at fair value, but provides a consistent definition of fair value and establishes a
framework for measuring fair value in accordance with U.S. GAAP. The standard is intended to increase
consistency and comparability in, and disclosures about, fair value measurements, by providing users with
better information about the extent to which fair value is used to measure financial assets and liabilities, the
inputs used to develop those measurements and the effect of the measurements, if any, on financial
condition, results of operations, liquidity and capital.
     Section 820 defines fair value as the price that would be received to sell an asset or paid to transfer a
liability (an “exit price”) in the principal or most advantageous market for an asset or liability in an orderly
transaction between market participants on the measurement date. When PBGC measures fair value for its
financial assets and liabilities, PBGC considers the principal or most advantageous market in which PBGC
would transact, and PBGC considers assumptions that market participants would use when pricing the asset
or liability. When possible, PBGC looks to active and observable markets to measure the fair value of
identical, or similar, financial assets or liabilities. When identical financial assets and liabilities are not traded in
active markets, PBGC looks to market observable data for similar assets and liabilities. In some instances,
certain assets and liabilities are not actively traded in observable markets, and as a result PBGC uses
alternative valuation techniques to measure their fair value.
    In addition, Section 820 establishes a hierarchy for measuring fair value. The fair value hierarchy is based
on the observability of inputs to the valuation of a financial asset or liability as of the measurement date. The
standard requires the recognition of trading gains or losses related to certain derivative transactions whose fair
value has been determined using unobservable market inputs.
     PBGC believes that its valuation techniques and underlying assumptions used to measure fair value
conform to the provisions of Section 820. PBGC has categorized the financial assets and liabilities that it
carries at fair value in the Statements of Financial Condition based upon the standard’s valuation hierarchy.
The hierarchy gives the highest priority to quoted prices in active markets for identical assets or liabilities
(Level 1); next highest priority to pricing methods with significant observable market inputs (Level 2); and the
lowest priority to significant unobservable valuation inputs (Level 3).
    If the inputs used to measure a financial asset or liability cross different levels of the hierarchy,
categorization is based on the lowest level input that is significant to the fair value measurement.
Management’s assessment of the significance of a particular input to the overall fair value measurement of a
financial asset or liability requires judgment, and considers factors specific to that asset or liability.
    The three levels are described below:
    Level 1 - Financial assets and liabilities whose values are based on unadjusted quoted prices for identical
assets or liabilities in an active market. PBGC’s Level 1 investments primarily included are exchange-traded
equity securities and certain U.S. Government securities.
     Level 2 - Financial assets and liabilities whose values are based on quoted prices for similar assets and
liabilities in active markets, and inputs that are observable for the asset or liability, either directly or indirectly,
for substantially the full term of the asset or liability. Level 2 inputs to the valuation methodology include the
following:
         a.   Quoted prices for similar assets or liabilities in active markets – included are cash equivalents,
              securities lending collateral, U.S. Government securities, asset backed securities, fixed foreign
              investments, corporate bonds, repos, bond forwards, and swaps;
         b. Quoted prices for identical or similar assets or liabilities in non-active markets – included are
            corporate stock, pooled funds fixed income, pooled funds equity, and foreign investments
            equity;

                                                           35
        c.   Pricing models whose inputs are observable for substantially the full term of the asset or liability
             – included are insurance contracts and bank loans; and
        d. Pricing models whose inputs are derived principally from or corroborated by observable market
           information through correlation or other means for substantially the full term of the asset or
           liability.
     Level 3 - Financial assets and liabilities whose values are based on prices or valuation techniques that
require inputs that are both unobservable in the market and significant to the overall fair value measurement.
These inputs reflect management’s judgment about the assumptions that a market participant would use in
pricing the asset or liability, and based on the best available information. The inputs or methodology used for
valuing securities are not necessarily an indication of the risk associated with investing in those securities. We
include instruments whose values are based on a single source such as a broker, pricing service, or dealer
which cannot be corroborated by recent market transactions. These include fixed maturity securities such as
corporate bonds that are comprised of securities that are no longer traded on the active market and/or not
managed by any asset manager. Equity securities such as corporate stocks are also included in this level, and
are comprised of securities that are no longer traded on the active market and/or not managed by any asset
manager. Private equity, real estate funds, and separate accounts that invest primarily in U.S. commercial real
estate, are valued based on each underlying investment within the fund/account incorporating valuations that
consider the evaluation of financing and sale transactions with third parties, expected cash flows and market-
based information, including comparable transactions, and performance multiples, among other factors.
    The assets and liabilities that PBGC carries at fair value are summarized by the three levels required by
Section 820 in the following table. The fair value of the asset or liability represents the price that would be
received to sell the asset or paid to transfer the liability (an exit price).




                                                       36
FAIR VALUE MEASUREMENTS ON A RECURRING BASIS AS OF SEPTEMBER 30, 2012
                                                                     Pricing Methods       Pricing Methods         Total Net
                                                                     with Significant      with Significant      Carrying Value
                                            Quoted Market               Observable          Unobservable         in Statements
                                            Prices in Active              Market                Market            of Financial
                                            Markets (Level 1)        Inputs (Level 2)      Inputs (Level 3)        Condition
(Dollars in millions)
Assets
Cash and cash equivalents                        $     425                  $ 3,367                                   $ 3,792
Securities lending collateral                                                 3,425                                      3,425
Investments:
  Fixed maturity securities
    U.S. Government securities                                              25,396
    Commercial paper/securities
      purchased under resale
      agreements                                                               442
    Asset backed/Mortgage backed
     securities                                                              3,509
    Pooled funds
       Domestic                                                               131                    277
       International
       Global/other
    Corporate bonds and other                            2                 11,071
    International securities                           (12)                 9,127
  Total fixed maturity securities                      (10)                49,676                    277               49,943
 Equity securities:
    Domestic                                         2,240                    170                         7
    International                                      668                      2
    Pooled funds
       Domestic                                          7                 10,791
       International                                     2                  8,731
       Global/other                                      1                      -                      0 ***
 Total equity securities                             2,918                 19,694                      7               22,619
 Private equity                                                                                    1,339                1,339
 Real estate and real estate
   investment trusts                                    2                       1                    508                  511
 Insurance contracts and other
   Investments                                                                 75                     2                       77
Receivables:
 Derivative contracts*                                  4                      79                                             83
Liabilities
Payables:
 Derivative contracts**                                20                      74                                             94
           * Derivative contracts receivables are comprised of open receivable trades on futures, swaps, and collateral
           deposits. See the Derivative Contracts table under Note 4.
           ** Derivative contracts payables are comprised of open payable trades on futures, swaps, options, and collateral
           deposits. See the Derivative Contracts table under Note 4.
           *** Less than $500,000.




                                                                37
           As of September 30, 2012, there were no significant transfers between Level 1 and Level 2. The end of
      the reporting period is the date used to recognize transfers between levels.


          CHANGES IN LEVEL 3 ASSETS AND LIABILITIES MEASURED AT FAIR VALUE ON
          A RECURRING BASIS FOR THE YEAR ENDED SEPTEMBER 30, 2012

                                                                                                                          Change in
                                           Total                                                                          Unrealized
                                         Realized                                                                            Gains
                         Fair Value         and                                                          Fair Value        (Losses)
                                                                                Transfers   Transfers
                             at         Unrealized     Purchases        Sales                                at           Related to
(Dollars in millions)                                                             Into       Out of
                         September         Gains                                                         September         Financial
                                                                                 Level 3     Level 3
                          30, 2011       (Losses)                                                         30, 2012       Instruments
                                         included                                                                           held at
                                        in Income                                                                         September
                                                                                                                          30, 2012 **
Assets:
Pooled funds (fixed)       $ 343            $(66)                                                         $ 277             $ (66)
Corporate bonds
  and other *                   0***           0***          0***        0***                                   0***            0***
Domestic/Int’l
equity *                       9               0***          1           (3)                                   7                0***
Private equity             1,459             (66)           12          (66)                               1,339              (66)

Real estate &
real estate
investment                   523            (24)             9           0***                                508               (24)
trusts

Other *                         0                                                      2                       2
      *Assets which are not actively traded in the market place.
      ** Amounts included in this column solely represent unrealized gains and losses and cannot be derived from other
      columns in this table.
      *** Less than $500,000.




                                                                   38
    Pursuant to FASB Accounting Standards Codification Section 820, Fair Value Measurements and Disclosures
– Investments in Certain Entities That Calculate Net Asset Value per Share; additional disclosures for Investments
priced at Net Asset Value are discussed below.


INVESTMENTS IN CERTAIN ENTITIES THAT CALCULATE NET ASSET VALUE PER SHARE (OR ITS
EQUIVALENT) FOR THE YEAR ENDED SEPTEMBER 30, 2012
                                                     Redemption
                    Fair Value       Unfunded       Frequency (If     Redemption
                   (in millions)   Commitments 1      Currently       Notice Period
                                                       Eligible)
Real estate (a)                     $    511                           $118                 n/a                     n/a
Private equity (b)                     1,339                            304                 n/a                     n/a
Pooled funds (c)                      11,206                              0                 n/a                     n/a
Total                               $ 13,056                           $422
 
1 Unfunded        amounts include recallable distributions. A substantial portion of the unfunded commitments is unlikely to
be called.

             a.    This class includes 157 real estate investments that invest primarily in U.S. commercial real estate, and to a
                   lesser extent, U.S. residential real estate. The fair value of each individual investment in this class has been
                   estimated using the net asset value of the PBGC's ownership interest in partners' capital. Generally, these
                   investments do not have redemption provisions. Distributions from each fund will be received as the
                   underlying assets of the fund will be liquidated over the next ten years or so. In addition, distributions will
                   also include any periodic income distributions received. No fund investments in this class are planned to
                   be sold. Individual portfolio investments will be sold over time, however, those have not yet been
                   determined.
             b.    This class includes 617 private market investments that invest primarily in U.S. buyout and U.S. venture
                   capital funds. A small number of those focus on natural resources. These investments do not have
                   redemption provisions. Instead, the nature of the investments in this class is that distributions are received
                   through the liquidation of the underlying assets of the funds. If these investments were held, it is
                   estimated that the underlying assets of the fund would be liquidated over the next twelve years. However,
                   the individual investments that will be sold have not yet been determined. The fair value of each individual
                   investment has been estimated using the net asset value of the PBGC's ownership interest in partners'
                   capital.
             c.    This class includes investments in unit trusts that are intended to match returns of domestic and
                   international indices. Units reflect a pro-rata share of the fund’s investments. The per unit net asset value
                   is determined each business day based on the fair value of the fund’s investments. Issuances and
                   redemptions are possible daily when a per unit value is determined and are based upon the closing per unit
                   net asset value.
 

 

 

 

 



                                                                  39
     PBGC uses recent prices of group annuities to derive the interest factors used to calculate the present
value of future benefit-payment obligations. PBGC determines the interest-factor set that, when combined
with a specified mortality table, produces present values that approximate the prices private insurers would
charge to annuitize the same benefit-payment obligations. Based on this valuation and in accordance with the
provisions of the FASB Accounting Standards Codification Section 820, Fair Value Measurements and
Disclosures, the significant unobservable inputs for the liability is the interest rate risk for Level 3 fair value
measurements. A change in interest factors has an impact to the calculation of PBGC’s present value of
future benefits (PVFB). The table below summarizes the hypothetical results of using a 100 basis point
difference causing the PVFB liability to increase (decrease) with a corresponding decrease (increase) in the
interest rates.
                     Hypothetical and Actual Interest Rate Sensitivity Calculations of PVFB
                      Single-Employer Trusteed Plans and the Multiemployer Program*
      September 30, 2012                  Hypothetical Rates               Actual Rates**            Hypothetical Rates
                                            2.28% for 25 years,             3.28% for 25 years,       4.28% for 25 years,
      (Dollars in millions)                    1.97% thereafter                2.97% thereafter          3.97% thereafter

     Single-Employer Program                             $115,759                        $103,126                $92,712

     Multiemployer Program                                   8,063                          7,010                  6,126

     Total                                               $123,822                        $110,136                $98,838

           *Level 3 Fair Value Measurements
           **Actual rates and PVFB amounts calculated for September 30, 2012 quarterly financial statements.


 


                              Note 6: Present Value of Future Benefits
    The following table summarizes the actuarial adjustments, charges and credits that explain how the
Corporation’s single-employer program liability for the present value of future benefits changed for the years
ended September 30, 2012 and for the fiscal year ended September 30, 2011. 
     For FY 2012, PBGC used a 25 year select interest factor of 3.28% followed by an ultimate factor of
2.97% for the remaining years. In FY 2011, PBGC used a 20-year select interest factor of 4.31% followed by
an ultimate factor of 4.26% for the remaining years. These factors were determined to be those needed,
given the mortality assumptions, to continue to match the survey of annuity prices provided by the American
Council of Life Insurers (ACLI). Both the interest factor and the length of the select period may vary to
produce the best fit with these prices. The prices reflect rates at which, in the opinion of management, the
liabilities (net of administrative expenses) could be settled in the market at September 30, for the respective
year, for single-premium nonparticipating group annuities issued by private insurers. Many factors, including
Federal Reserve policy, changing expectations about longevity risk, and competitive market conditions may
affect these rates.
     For FY 2012, PBGC used the Retirement Plan-2000 Combined Healthy (RP-2000 CH) Male and Female
Tables, each set back one year and projected 22 years to 2022 using Scale AA. For September 30, 2011,
PBGC used the same table, set back one year and projected 21 years to 2021 using Scale AA.  The number of
years that PBGC projects the mortality table reflects the number of years from the 2000 base year of the table
to the end of the fiscal year (12 years in FY 2012, 11 years in FY 2011) plus PBGC’s calculated duration of its
liabilities (10 years in FY 2012 and FY 2011).



                                                               40
    PBGC continues to utilize the results of its 2011 mortality study. The study showed that the mortality
assumptions used in FY 2010 reflected higher mortality than was realized in PBGC’s seriatim population.
Therefore, PBGC adopted a base mortality table (i.e. RP-2000 CH set back one year instead of GAM94 set
forward one year) that better reflects past mortality experience. The study also recommended changes in the
mortality assumptions for disabled lives that PBGC implemented in the June 30, 2011 and subsequent
valuations. The ACLI survey of annuity prices, when combined with the mortality table, provides the basis
for determining the interest factors used in calculating the PVFB. The insurance company prices, when
combined with the stronger mortality table, results in a higher interest factor.
    The expense reserve factor for administrative expenses beginning with the FY 2007 valuation is 1.37
percent plus additional reserves for cases in which plan asset determinations, participant database audits and
actuarial valuations were not yet complete. In addition to the completion of these milestones, PBGC
continues to base the reserve on case size, number of participants and time since trusteeship. 
    The present values of future benefits for trusteed multiemployer plans for FY 2012 and FY 2011 reflect
the payment of benefits and the changes in interest and mortality assumptions, expected interest and the
effect of experience. 
    The resulting liability represents PBGC’s best estimate of the measure of anticipated experience under
these programs.




                                                      41
    RECONCILIATION OF THE PRESENT VALUE OF FUTURE BENEFITS
     FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                                                                                            September 30,

    (Dollars in millions)                                                               2012                                          2011
    Present value of future benefits, at beginning
          of year -- Single-Employer, net                                                      $ 92,953                                      $90,022
      Estimated recoveries, prior year                                                              205                                          107
      Assets of terminated plans pending trusteeship, net, prior year                               280                                          542
      Present value of future benefits at beginning of year, gross                               93,438                                       90,671
      Settlements and judgments, prior year                                                          (56)                                         (55)
      Net claims for probable terminations, prior year                                             (833)                                      (1,445)
      Actuarial adjustments -- underwriting:
        Changes in method and assumptions                                  $     76                                         $1,881
        Effect of experience                                                    153                                           (209)
        Total actuarial adjustments -- underwriting                             229                                          1,672
      Actuarial charges -- financial:
        Expected interest                                                   3,927                                             3,880
        Change in interest rates                                           10,718                                             1,009
        Total actuarial charges -- financial                               14,645                                             4,889
      Total actuarial charges, current year                                                     14,874                                        6,561
      Terminations:
        Current year                                                           2,035                                         2,363
        Changes in prior year                                                    (16)                                         (206)
        Total terminations                                                                        2,019                                        2,157
      Benefit payments, current year*                                                            (5,384)                                      (5,340)
      Estimated recoveries, current year**                                                         (243)                                        (205)
      Assets of terminated plans pending trusteeship, net, current year                            (271)                                        (280)
      Settlements and judgments, current year                                                        56                                           56
      Net claims for probable terminations:
        Future benefits***                                                  7,686                                           1,379
        Estimated plan assets and recoveries from sponsors                 (5,651)                                           (546)
        Total net claims, current year                                                            2,035                                        833
    Present value of future benefits,
      at end of year -- Single-Employer, net                                                    105,635                                      92,953
    Present value of future benefits,
      at end of year -- Multiemployer                                                                 1                                        1
    Total present value of future benefits, at end of year, net                                $105,636                                  $92,954

 

* The benefit payments of $5,384 million and $5,340 million include $51 million in FY 2012 and $(42) million in FY
2011 for benefits paid from plan assets by plans prior to trusteeship.
**United Continental Holdings, Inc. (UAL) is obligated under an indenture to issue to PBGC up to $500
million aggregate principal amount of 8% Contingent Senior Notes (8% Notes) in up to eight equal tranches of
$62.5 million if certain UAL earnings related triggering events occur. As of September 30, 2012, UAL issued
two tranches of $62.5 million of the 8% Notes. 

*** The future benefits for probable terminations of $7,686 million and $1,379 million for fiscal years 2012 and 2011,
respectively, include $299 million and $288 million, respectively, for probable terminations not specifically identified and
$7,387 million and $1,091 million, respectively, for specifically identified probables.




                                                                          42
    The following table details the assets that make up single-employer terminated plans pending termination
and trusteeship:
 ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION
 AND TRUSTEESHIP, NET
                                                              September 30, 2012                                   September 30, 2011
                                                              Basis      Market                                    Basis       Market
 (Dollars in millions)                                                     Value                                                 Value
 U.S. Government securities                                   $ 0           $ 0                                    $ 0           $ 0
 Corporate and other bonds                                     108           109                                    148           148
 Equity securities                                             164           170                                    137           139
 Private equity                                                  0             0                                      0             0
 Insurance contracts                                             0 *           0 *                                    7             7
 Other                                                          (8)           (8)                                   (19)          (14)

 Total, net                                                   $264                $271                             $273             $280

 * less than $500,000




Net Claims for Probable Terminations
     Factors that are presently not fully determinable may be responsible for these claim estimates differing
from actual experience. Included in net claims for probable terminations is a provision for future benefit
liabilities for plans not specifically identified.
    The values recorded in the following reconciliation table have been adjusted to the expected dates of
termination.
RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
                                                                                        September 30,
(Dollars in millions)                                                    2012                                      2011
Net claims for probable terminations, at beginning of year                      $ 833                                     $1,445
New claims                                                    $ 1,736                                    $ 545
Actual terminations                                              (150)                                     (474)
Deleted probables                                               (394)                                     (718)
Change in benefit liabilities                                      10                                       35
Change in plan assets                                               0                                        0
Loss (credit) on probables                                                        1,202                                     (612)
Net claims for probable terminations, at end of year                            $ 2,035                                   $ 833
 
 
       The following table itemizes the single-employer probable exposure by industry:
PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
(Dollars in millions)                                              FY 2012                    FY 2011
Manufacturing                                                     $ 1,900                        $  -
Health Care                                                           135                         231
Wholesale and Retail Services                                           -                         602
Services                                                                -                            -
Total                                                             $ 2,035                        $833
 
       For further detail, see Note 2 subpoint (4).




                                                             43
    The following table shows what has happened to plans classified as probables. This table does not
capture or include those plans that were not previously classified as probable before they terminated.


ACTUAL PROBABLES EXPERIENCE
As Initially Recorded Beginning in 1987
(Dollars in millions)                                            Status of Probables from 1987-2011 at September 30, 2012
                                                           Number of           Percent of                   Net           Percent of
Beginning in 1987, number of plans reported as Probable:       Plans                Plans                 Claim           Net Claim
  Probables terminated                                           364                79%                $28,622                 73%
    Probables not yet terminated or deleted                         0                0                        0                 0
    Probables deleted                                             98                21                  10,729                 27
    Total                                                        462              100%                 $39,351               100%
 




                                 Note 7: Multiemployer Financial Assistance
    PBGC provides financial assistance to multiemployer defined benefit pension plans in the form of loans.
Since these loans are not generally repaid, an allowance is set up to the extent that repayment of these loans is
not expected.


        NOTES RECEIVABLE MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                              September 30,                                  September 30,
        (Dollars in millions)                                                     2012                                            2011

        Gross balance at beginning of year                                            $599                                             $484
        Financial assistance payments - current year                                    95                                               115
        Write-offs related to settlement agreements                                      0                                                 0
        Subtotal                                                                       694                                               599
        Allowance for uncollectible amounts                                           (694)                                             (599)
        Net balance at end of year                                                    $ 0                                              $ 0




    The losses from financial assistance and probable financial assistance are reflected in the Statements of
Operations and Changes in Net Position include period changes in the estimated present value of
nonrecoverable future financial assistance. The losses from financial assistance are presented as actuarial
charges, credits, and adjustments for plans that are known to be insolvent as of the valuation date and/or
have or about to begin receiving financial assistance. In addition, a change in the valuation of the liability due
to new data received (e.g., new plan expenses, more recent valuation liabilities, and new withdrawal payment
schedules) is included as financial assistance from insolvent and probable plans on the Statements of
Operations and Changes in Net Position. This valuation data change is a separate line item from actuarial
adjustments and actuarial charges.  
    As of September 30, 2012, the corporation expects 148 multiemployer plans will exhaust plan assets and
need financial assistance from PBGC to pay guaranteed benefits and plan administrative expenses. The
present value of nonrecoverable future financial assistance for these 148 plans is $7.010 billion. The 148
plans fall into three categories: (1) plans currently receiving financial assistance; (2) plans that have terminated

                                                                   44
but have not yet started receiving financial assistance from PBGC; and (3) ongoing plans (not terminated)
that the corporation expects will require financial assistance in the future. The latter two categories are
comprised of multiemployer probables as defined by the following classification criteria:
            •     Probable insolvent plan-terminated future probables – A plan that may still have assets but the
                  combination of plan assets and collectible payments of withdrawal liability are projected to be
                  insufficient to cover plan benefits plus expenses.
            •     Probable insolvent plan-ongoing future probables – An ongoing plan with a projected date of
                  insolvency within 10 years.


MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                September 30, 2012                 September 30, 2011
                                                             Number of        Net                Number of        Net
(Dollars in millions)                                         Plans         Liability              Plans        Liability

Plans currently receiving financial assistance                       41      $1,388                     41       $1,232


Plans that have terminated but have not yet started                  61        1,725                    60          1,487
receiving financial assistance

Ongoing plans (not terminated) that the corporation                  46        3,897                    34          1,756
expects will require financial assistance in the future

Total                                                               148      $7,010                    135       $4,475


     Of the 148 plans:

        1) 41 have exhausted plan assets and are currently receiving financial assistance payments from PBGC.
           The present value of future financial assistance payments for these insolvent 41 plans is $1.388
           billion.

        2) 61 plans have terminated but have not yet started receiving financial assistance payments from
           PBGC. Terminated multiemployer plans no longer have employers making regular contributions
           for covered work, though some plans continue to receive withdrawal liability payments from
           withdrawn employers. In general, PBGC records a loss for future financial assistance for any
           underfunded multiemployer plan that has terminated. The present value of future financial
           assistance payments to these 61 terminated plans is $1.725 billion.

        3) 46 plans are ongoing (i.e., have not terminated), but PBGC expects these plans will exhaust plan
           assets and need financial assistance within 10 years. In this analysis, PBGC takes into account the
           current plan assets, future income to the plan, the statutory funding rules, and the possibility for
           future increases in contributions. The present value of future financial assistance payments for
           these 46 ongoing plans is $3.897 billion.




                                                           45
PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                                                                            September 30,                September 30,
(Dollars in millions)                                                           2012                           2011

Balance at beginning of year                                                    $4,475                         $3,030
Changes in allowance:
  Losses from insolvent and probable plans - financial assistance                2,466                          1,461
  Actuarial adjustments                                                             (6)                            37
Actuarial charges (credits):
  Due to expected interest                                                          54                               52
  Due to change in interest rates                                                  116                               10
Financial assistance granted
   (previously accrued)                                                            (95)                          (115)
Balance at end of period                                                        $7,010                         $4,475



In the table above, actuarial charges are reported separately from Losses from insolvent and probable plans-
financial assistance. As a result, the table includes the following new lines: Actuarial adjustments, Due to
expected interest, and Due to change in interest rates. Insolvent plans are presented within these three new
actuarial charges (credits) lines. Losses from insolvent and probable plans-financial assistance include plans
that terminated but have not yet received financial assistance, ongoing plans that PBGC expects will require
financial assistance in the future, and those insolvent plans that have a change in liability due to new plan data
included in the valuation.
 


                         Note 8: Accounts Payable and Accrued Expenses
    The following table itemizes accounts payable and accrued expenses reported in the Statements of
Financial Condition:
ACCOUNTS PAYABLE AND ACCRUED EXPENSES
                                                                              September 30,                    September 30,
(Dollars in millions)                                                                 2012                            2011
Annual leave                                                                              $  9                            $  8
Other payables and accrued expenses                                                         70                              62
Accounts payable and accrued expenses                                                     $ 79                            $ 70




                              Note 9: Reasonably Possible Contingencies
Single-Employer Plans
    Single-employer plans sponsored by companies whose credit quality is below investment grade pose a
greater risk of being terminated. The estimated unfunded vested benefits exposure amounts disclosed below
represent the Corporation’s estimates of the reasonably possible exposure to loss given the inherent
uncertainties about these plans. In rare circumstances for certain large companies, the reasonably possible
exposure calculation reflects the estimated unfunded guaranteed benefit determination rather than the
estimated unfunded vested benefit determination.



                                                                    46
     In accordance with the FASB Accounting Standards Codification Section 450, Contingencies, PBGC
classified a number of these companies as reasonably possible rather than probable terminations as the
sponsors’ financial condition and other factors did not indicate that termination of their plans was likely.
This classification was done based upon information about the companies as of September 30, 2012. The
following standard criteria for a single-employer plan sponsor to be classified as Reasonably Possible are as
follows:
        a.   The sponsor(s) or significant member(s) of its controlled group (e.g., a parent or major
             subsidiary) is in reorganization under Title 11 of the United States code.
        b. An application for a funding waiver is pending or outstanding with the IRS.
        c.   A minimum funding contribution has been missed.
        d. The sponsor(s) has an S&P senior unsecured credit rating or an issuer credit rating less two
           notches of BB+ or below, or a Moody’s senior unsecured credit rating or a corporate family
           rating less one notch of Ba1 or below. If the controlled group is not rated by Moody’s and S&P,
           PBGC will use the Dun & Bradstreet Financial Stress Score (if available) to classify the
           controlled group as Reasonably Possible or Remote.
        e.   The sponsor(s) has no bond rating, but analysis indicates that its unsecured debt would be below
             investment grade.
        f.   The sponsor(s) meet at least one of the PBGC “high risk” criteria.
        g. Other (detailed explanation must be provided and be approved by PBGC’s Contingency
           Working Group).
     The estimate of unfunded vested benefits exposure to loss for the single-employer plans of these
companies was measured as of December 31, 2011. The reasonably possible exposure to loss in these plans
was $295 billion for FY 2012. This is an increase of $68 billion from the reasonably possible exposure of
$227 billion in FY 2011. This reasonably possible exposure increased primarily due to the decrease in the
interest rate used for valuing liabilities and low asset returns for calendar year 2011.
    Except in rare circumstances as indicated earlier in this footnote, the estimate of unfunded vested
benefits exposure to loss is not generally based on PBGC-guaranteed benefit levels, since data is not available
to determine an estimate at this level of precision. PBGC calculated this estimate, as in previous years, by
using the most recent data available from filings and submissions to the Corporation for plan years ended on
or after December 31, 2010. The Corporation adjusted the value reported for liabilities to December 31,
2011, using a select rate of 3.08% for the first 20 years and 3.37% thereafter and applying the expense load as
defined in 29 CFR Part 4044, Appendix C. The rates were derived in conjunction with the 1994 Group
Annuity Mortality Static Table (with margins) projected to 2021 using Scale AA to approximate annuity prices
as of December 31, 2011. The underfunding associated with these plans could be substantially different at
September 30, 2012, because of the economic conditions that changed between December 31, 2011 and
September 30, 2012. The Corporation did not adjust the estimate for events that occurred between
December 31, 2011, and September 30, 2012.




                                                      47
       The following table by industry itemizes the single-employer reasonably possible exposure to loss:


 REASONABLY POSSIBLE EXPOSURE TO LOSS BY INDUSTRY
(PRINCIPAL CATEGORIES)
(Dollars in millions)                                                       FY 2012    FY 2011
Manufacturing *                                                            $155,857   $120,690
Transportation, Communication and Utilities **                               67,355     50,133
Services                                                                     29,795     25,879
Wholesale and Retail Trade                                                   17,199     12,218
Health Care                                                                  12,089      8,818
Finance, Insurance, and Real Estate                                           8,463      5,953
Agriculture, Mining, and Construction                                         4,205      3,426
Total                                                                      $294,963   $227,117
 
* Primarily automobile/auto parts and primary and fabricated metals
** Primarily airline


Multiemployer Plans
    There are some multiemployer plans that may require future financial assistance. PBGC included
amounts in the liability for the present value of nonrecoverable future financial assistance (See Note 7) for
multiemployer plans that PBGC estimated may require future financial assistance. In addition, PBGC
estimated as of September 30, 2012, that it is reasonably possible that other multiemployer plans may require
future financial assistance in the amount of $27 billion.
     The Corporation calculated the future financial assistance liability for each multiemployer plan identified
as probable (see Note 7), or reasonably possible as the present value of guaranteed future benefit and expense
payments net of any future contributions or withdrawal liability payments as of the later of September 30,
2012, or the projected (or actual, if known) date of plan insolvency, discounted back to September 30, 2012.
The Corporation’s identification of plans that are likely to require such assistance and estimation of related
amounts required consideration of many complex factors, such as an estimate of future cash flows, future
mortality rates, and age of participants not in pay status. These factors are affected by future events,
including actions by plans and their sponsors, most of which are beyond the Corporation’s control.
Reasonably possible multiemployer classification is defined as an ongoing plan with a projected insolvency
date between 10 and 20 years from the valuation date.
        
        
        
        
        
        
        
        
        
        
        




                                                                      48
                                      Note 10: Commitments
    PBGC leases its office facility under a commitment that began on January 1, 2005, and expires December
10, 2018. This lease provides for periodic rate increases based on increases in operating costs and real estate
taxes over a base amount. In addition, PBGC is leasing space for field benefit administrators. These leases
began in 1996 and expire in 2017. The minimum future lease payments for office facilities having
noncancellable terms in excess of one year as of September 30, 2012, are as follows:

COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                            Operating
September 30,                                                            Leases
2013                                                                       $ 18.9
2014                                                                         18.5
2015                                                                         18.3
2016                                                                         18.0
2017                                                                         17.9
Thereafter                                                                   39.8
Minimum lease payments                                                     $131.4
 
Lease expenses were $17.6 million in FY 2012 and $18.3 million in FY 2011.



                                         Note 11: Premiums
       For both the single-employer and multiemployer programs, ERISA provides that PBGC shall continue to
guarantee basic benefits despite the failure of a plan administrator to pay premiums when due. PBGC
assesses interest and penalties on the unpaid portion of or underpayment of premiums. Interest continues to
accrue until the premium and the interest due are paid. For plan years 2012 and 2011, the flat-rate premiums
for single-employer pension plans were $35 per participant and for multiemployer plans, $9 per participant.
PBGC recorded net premium income of $2.734 billion that consisted primarily of $1.215 billion in flat-rate
premiums, $1.495 billion in variable-rate premiums, and $0.033 billion in termination premiums, offset by a
bad debt expense of $0.014 billion. Bad debt expenses include a reserve for uncollectible premium
receivables (including flat, variable, and termination premiums), interest, and penalties. Net premium income
for FY 2011 was $2.164 billion and consisted primarily of approximately $1.235 billion in flat-rate premiums,
$0.929 billion in variable-rate premiums, and $0.202 billion in termination premiums, offset by a bad debt
expense of $0.207 billion. The termination premium applies to certain plan terminations occurring after
2005. If a pension plan terminates in a distress termination pursuant to ERISA section 4041(c)(2)(B)(ii) or
(iii), or in a PBGC-initiated termination under ERISA section 4042, the plan sponsor and its controlled group
are liable to PBGC for a termination premium at the rate of $1,250 per plan participant per year for three
years.




                                                      49
        The following table presents a year-to-year comparison of key premium information.


PREMIUMS

                                                        September 30, 2012     September 30, 2011
    (Dollars in millions)

    Flat Rate Premium:                                                          
    Single-Employer                                            $1,123                 $1,143 
    Multiemployer                                                  92                     92 
    Total Flat Rate Premium                                     1,215                  1,235 
    Variable Rate Premium                                        1,495                   929
    Interest and Penalty Income                                      5                     5
    Termination Premium                                            33                    202
    Less Changes in the Allowance Reserve for    
    Bad Debts for Interest, Penalties,
    and Premiums                                                   (14)                 (207)        
    Total                                                      $2,734                  $2,164  

    Single-Employer                                            $2,623                  $2,077  
    Termination Premium                                            33                    202
    Less Changes in the Allowance Reserve for    
    Bad Debts for Interest, Penalties,
    and Premiums                                                  (14)                  (207)      
    Total Single-Employer                                       2,642                  2,072  
    Multiemployer                                                  92                     92  
    Less Changes in the Allowance Reserve for    
    Bad Debts for Interest and Penalties                             0*                     0*
    Total Multiemployer                                            92                     92
    Total                                                      $2,734                 $2,164 
 

* less than $500,000

                                          




                                                          50
                          Note 12: Losses from Completed and Probable Terminations
    Amounts reported as losses are the present value of future benefits less related plan assets and the
present value of expected recoveries from sponsors. The following table details the components that make
up the losses:


    LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS
    SINGLE-EMPLOYER PROGRAM
                                                                              For the Years Ended September 30,    
                                                                2012                                                              2011 
                                                             Changes in                                                        Changes in
    (Dollars in millions)                      New           Prior Year        Total                    New                    Prior Year       Total 
                                            Terminations    Terminations                             Terminations             Terminations
    Present value of future benefits              $2,035            $ (16)     $2,019                    $ 2,363                     $ (206)    $2,157
    Less plan assets                               1,027               228      1,255                      1,173                         175     1,348
    Plan asset insufficiency                       1,008              (244)       764                      1,190                        (381)     809
    Less estimated recoveries                          0               (39)       (39)                         0                          (3)      (3)
    Subtotal                                       1,0081             (205)       803                      1,1901                      (378)      812
    Settlements and judgments                                            1          1                                                       1       1
    Loss (credit) on probables                     (150)2            1,3523      1,2024                    (474)2                      (138)3     (612)4
    Total                                         $ 858             $1,148     $2,006                     $ 716                       $(515)    $ 201
     
          1    Gross amounts for plans terminated during the period, including plans previously recorded as probables.
          2    Net claims for plans previously recorded as probables that terminated.
          3    Includes changes to old and new probables.
          4    See Note 6 - includes $150 million at September 30, 2012, and $474 million at September 30, 2011,
                previously recorded relating to plans that terminated during the period (“Actual terminations”).
 

 

 

 

 

 

 

 

 

 

 

 




                                                                   51
                                              Note 13: Financial Income
   The following table details the combined financial income by type of investment for both the single-
employer and multiemployer programs:
INVESTMENT INCOME SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
                             Single-Employer Multiemployer      Memorandum       Single-Employer   Multiemployer    Memorandum
                                 Program        Program            Total             Program         Program            Total
(Dollars in millions)          Sept. 30, 2012 Sept. 30, 2012    Sept. 30, 2012    Sept. 30, 2011   Sept. 30, 2011   Sept. 30, 2011

Fixed maturity securities:
  Interest earned                    $1,800             $44            $1,844            $1,796              $57           $1,853
  Realized gain                       2,005              36             2,041               973               31            1,004
  Unrealized gain                       894              11               905               733               60              793

Total fixed maturity
  securities                          4,699              91             4,790             3,502              148            3,650

Equity securities:
  Dividends earned                       66              0                 66                67                0               67
  Realized gain                       1,385              0              1,385             2,857                0            2,857
  Unrealized gain (loss)              2,622              0              2,622            (3,200)               0           (3,200)

  Total equity securities             4,073              0              4,073              (276)               0             (276)

Private equity:
  Distributions earned                   27              0                 27                27                0               27
  Realized gain (loss)                   81              0                 81                (9)               0               (9)
  Unrealized gain                       (66)             0                (66)              126                0              126

  Total private equity                   42              0                 42               144                0              144

Other income (loss)                     (22)             0                (22)               76                0               76

Total investment income              $8,792             $91            $8,883            $3,446            $148            $3,594



                                      Note 14: Employee Benefit Plans
     All permanent full-time and part-time PBGC employees are covered by the Civil Service Retirement
System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-time employees
with less than five years of service under CSRS and hired after December 31, 1983, are automatically covered
by both Social Security and FERS. Employees hired before January 1, 1984, participate in CSRS unless they
elected and qualified to transfer to FERS.
    The Corporation’s contribution to the CSRS plan for both FY 2012 and FY 2011 was 7.0 percent of base
pay for those employees covered by that system. For those employees covered by FERS, the Corporation’s
contribution was 11.7 percent of base pay for FY 2012, increased from 11.2 percent for FY 2011. In
addition, for FERS-covered employees, PBGC automatically contributes one percent of base pay to the
employee’s Thrift Savings account, matches the first three percent contributed by the employee and matches
one-half of the next two percent contributed by the employee. Total retirement plan expenses amounted to
$20 million in FY 2012 and $19 million in FY 2011.

                                                               52
    These financial statements do not reflect CSRS or FERS assets or accumulated plan benefits applicable to
PBGC employees. These amounts are reported by the U.S. Office of Personnel Management (OPM) and are
not allocated to the individual employers. OPM accounts for federal health and life insurance programs for
those eligible retired PBGC employees who had selected federal government-sponsored plans. PBGC does
not offer other supplemental health and life insurance benefits to its employees.

                                              Note 15: Cash Flows

     The following table consists of detailed cash flows from the sales and purchases of investment activity.
Sales and purchases of investments are driven by the level of newly trusteed plans, the unique investment
strategies implemented by PBGC’s investment managers, and the varying capital market conditions in which
they invest during the year. These cash flow numbers can vary significantly from year to year based on the
fluctuation in these three variables.


    INVESTING ACTIVITIES (SINGLE-EMPLOYER
    AND MULTIEMPLOYER PROGRAMS COMBINED)
                                                                  September 30,
     (Dollars in millions)                                 2012                      2011

     Proceeds from sales of investments:
        Fixed maturity securities                      $70,055                    $73,641
        Equity securities                                6,120                      9,113
        Other/uncategorized                              1,874                      3,704
     Memorandum total                                  $78,049                    $86,458

     Payments for purchases of investments:
        Fixed maturity securities                     $(69,841)                   $(77,935)
        Equity securities                               (6,681)                     (4,144)
        Other/uncategorized                             (1,262)                     (2,248)
     Memorandum total                                 $(77,784)                   $(84,327)
 




                                                      53
    The following is a reconciliation between the net income as reported in the Statements of Operations and
Changes in Net Position and net cash provided by operating activities as reported in the Statements of Cash
Flows.
RECONCILIATION OF NET INCOME TO NET CASH PROVIDED
BY OPERATING ACTIVITIES
                                                                 Single-Employer           Multiemployer           Memorandum
                                                                     Program                  Program                  Total
                                                                    September 30,           September 30,            September 30,
    (Dollars in millions)                                         2012        2011          2012      2011         2012         2011

    Net income (loss)                                          $(5,876)    $ (1,672)     $(2,467)   $(1,334)    $(8,343)    $(3,006)
    Adjustments to reconcile net income to net cash
     provided by operating activities:
       Net (appreciation) decline in fair value of
           investments                                          (6,958)        (1,634)      (46)       (91)      (7,004)     (1,725)
       Net gain (loss) of plans pending termination and
           trusteeship                                             (27)            23         0          0          (27)        23
       Losses (credits) on completed
           and probable terminations                             2,006            201         0          0       2,006         201
       Actuarial charges (credits)                              14,874          6,561         0          0      14,874        6,561
       Benefit payments - trusteed plans                        (5,333)        (5,382)        0          0      (5,333)      (5,382)
       Settlements and judgments                                     0              0         0          0           0            0
       Cash received from plans upon trusteeship                   126             36         0          0         126           36
       Receipts from sponsors/non-sponsors                         114             70         0          0         114           70
       Amortization of discounts/premiums                           99           100         10         10         109          110
       Changes in assets and liabilities, net of effects
          of trusteed and pending plans:
            (Increase) decrease in receivables                   (510)          144           0          1        (510)        145
             Increase in present value of
               nonrecoverable future financial assistance                                 2,535      1,445       2,535        1,445
             Increase in unearned premiums                        (38)           2           (1)         0         (39)           2
             Increase (decrease) in accounts payable                (8)        (33)           1          0          (7)         (33)
    Net cash provided (used) by operating activities           $(1,531)    $(1,584)      $ 32       $ 31       $(1,499)     $(1,553)

 


                                                            Note 16: Litigation
   Legal challenges to PBGC’s policies and positions continued in FY 2012. At the end of the fiscal year,
PBGC had 47 active cases in state and federal courts and 473 bankruptcy and state receivership cases.
    PBGC records as a liability on its financial statements an estimated cost for unresolved litigation to the
extent that losses in such cases are probable and estimable in amount. In addition to such recorded costs,
PBGC estimates with a degree of certainty that possible losses of up to $68 million could be incurred in the
event that PBGC does not prevail in these matters.
 


                                                   Note 17: Subsequent Events
     Management evaluated subsequent events through publication on November 14, 2012, the date the
financial statements were available to be issued. Events or transactions for either the single-employer or
multiemployer program, occurring after September 30, 2012 and before the financial statements were
available to be issued, that provided additional evidence about conditions that existed at September 30, 2012
have been recognized in the financial statements.
    For the single-employer program, there was one nonrecognized subsequent event. Subsequent to
September 30, 2012, business and financial conditions significantly declined for one controlled group that
sponsors two single-employer plans (unfunded guaranteed liabilities of $0.063 billion). Had these events

                                                                          54
occurred on or prior to September 30, 2012, PBGC’s financial statements would have reflected an additional
loss of $0.063 billion resulting in an FY 2012 single-employer net loss of $5.939 billion and an FY 2012
single-employer net position of $(29.205) billion.
     For the multiemployer program, there was one nonrecognized subsequent event. On November 5, 2012,
PBGC received a formal notice of a mass withdrawal termination from a multiemployer plan, resulting in the
present value of financial assistance of approximately $0.127 billion as of September 30, 2012. Had this event
occurred on or prior to September 30, 2012, PBGC’s financial statements would have reflected an additional
loss of $0.127 billion, resulting in a FY 2012 multiemployer program net loss of $2.59 billion and a FY 2012
multiemployer program net position of $(5.36) billion.




 


                                                     55
Audit of the Pension Benefit Guaranty Corporation’s
 Fiscal Year 2012 and 2011 Financial Statements

      Audit Report AUD-2013-1 / FA-12-88-1




                   Section III

          Management Comments
This page intentionally left blank.
This page intentionally left blank.
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
